<html>
<title> - THE JOHN H. CHAFEE COASTAL BARRIER RESOURCES SYSTEM</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
          THE JOHN H. CHAFEE COASTAL BARRIER RESOURCES SYSTEM

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                      U.S. HOUSEOF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                      Thursday, November 20, 2003

                               __________

                           Serial No. 108-78

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

90-579              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Walter B. Jones, Jr., North          Ron Kind, Wisconsin
    Carolina                         Madeleine Z. Bordallo, Guam
Randy Neugebauer, Texas              Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, November 20, 2003......................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     3

Statement of Witnesses:
    Lowe, Anthony S., Director, Mitigation Division and Federal 
      Insurance Administrator, Federal Emergency Management 
      Agency.....................................................    15
        Prepared statement of....................................    16
    Salvesen, David A., Center for Urban and Regional Studies, 
      University of North Carolina at Chapel Hill................    18
        Prepared statement of....................................    21
    Tuggle, Dr. Benjamin N., Chief, Division of Federal Program 
      Activities, Fish and Wildlife Service, U.S. Department of 
      the Interior...............................................     5
        Prepared statement of....................................     6
        Response to questions submitted for the record...........    12


   OVERSIGHT HEARING ON THE JOHN H. CHAFEE COASTAL BARRIER RESOURCES 
                                 SYSTEM

                              ----------                              


                      Thursday, November 20, 2003

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
Room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.
    Present: Representatives Gilchrest and Pallone.
    Mr. Gilchrest. The Subcommittee will come to order. I want 
to welcome all of our witnesses this morning. You arrived on a 
beautiful, sunny fall day, not too much wind, a gentle breeze, 
and no rain. The only thing left unsolved is the traffic. We 
will look at that on another day.
    We will conduct an oversight hearing on the John H. Chafee 
and Tom Evans Coastal Barrier Resources System.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. In 1982, Congress enacted legislation to 
protect underdeveloped coastal barrier islands and to stop the 
endless process of rebuilding property that has been damaged or 
destroyed by storms. CBRA is unique and important in that it 
saves lives, saves taxpayers millions of dollars, and helps to 
conserve some of the most fragile land in our coastal 
ecosystem.
    I strongly support the Coastal Barrier Resources System and 
have grown increasingly troubled by the number of legislative 
proposals to remove land from various CBRA units and adjust 
system boundaries.
    Since becoming a member of this Subcommittee, since 1995, 
there has been a number of hearings on what were called 
technical changes to the Coastal Barrier Resources System. We 
have heard members argue that their constituents were adversely 
affected by incorrectly drawn boundary lines, failure to meet 
the number of structures per acre rule, the development of 
infrastructure prior to 1982, and bad advice from the U.S. Fish 
and Wildlife Service. There are even some property owners who 
simply do not want to be incorporated within the system, 
despite the fact that they built their homes with the full 
knowledge that the Federal flood insurance was unavailable.
    While some of these proposals have been enacted, it seems 
there is always another technical change in the pipeline and it 
is fair to say that the system is being undermined an acre at a 
time.
    There is no language in the Coastal Barrier Resources Act 
that stops a single property owner from building a home on a 
coastal barrier that he owns. However, the message of CBRA is 
that people can develop but taxpayers won't pay. To protect 
taxpayers, human lives, and fragile habitat, such an owner may 
not fairly expect the public, through Federal flood insurance 
and other government subsidies, to invest in such risky 
business within the CBRA system.
    It is my hope that today we can learn how many acres have 
been removed from the system, how many have been added, and 
what is the impact on the ongoing digital mapping effort and 
what is the cumulative impact of legislative efforts to modify 
the system since 1982. I look forward to hearing from the U.S. 
Fish and Wildlife Service, the Federal Emergency Management 
Agency, and Professor David Salvesen, an expert on the Coastal 
Barrier Resources System.
    We look forward to your testimony so that we can find some 
way--not everybody would agree with me on this, but some way to 
effectively deal with the annual bills that we get here in 
Congress to say that I was inadvertently put into the system, a 
mapping error has caused me some financial distress and so I 
would like it to be corrected, and members of Congress will 
either pass that as a freestanding bill or it will be submitted 
to a conference report where it gets into some omnibus bill, 
goes to Federal court, Federal court overrules it, says they 
didn't have a right to get their Federal funding source because 
they were in this CBRA system, and then the next year it gets 
put into some omnibus bill and gets passed out and it goes on 
and on like that.
    We are not here to blame anybody at the table in front of 
us. The responsibility lies with us here as members of Congress 
to uphold the Act that was passed so many years ago. But what 
we would like to do is to learn from you basically the history 
of the system, your impressions of its success, how much 
development has gone on in the area of CBRA, perhaps because of 
local and State policy, how much development is there actually 
on areas that are designated as CBRA, do we keep an accounting 
of that, what is the cost of the annual problem with storms, 
and where are we with the mapping? Will we have a day when 
someone cannot say they made a mistake? Will there be a day 
when there is a CBRA system that is digitized, done, complete, 
and there will be no more question about it? We look forward to 
your testimony.
    [The prepared statement of Mr. Gilchrest follows:]

       Statement of The Honorable Wayne T. Gilchrest, Chairman, 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

    Good morning. Today, the Subcommittee will conduct an oversight 
hearing on the John H. Chafee Coastal Barrier Resources System (CBRA).
    In 1982, Congress enacted legislation to protect undeveloped 
coastal barrier islands and to stop the endless process of rebuilding 
property that has been damaged or destroyed by storms. CBRA is unique 
and important in that it, saves lives, saves taxpayers millions of 
dollars, and helps to conserve some of the most fragile lands in our 
coastal ecosystem.
    I strongly support the Coastal Barrier Resources System and have 
grown increasingly troubled by the number of legislative proposals to 
remove land from various CBRA units and adjust system boundaries.
    Since becoming a member of this Subcommittee nine years ago, there 
have been a number of hearings on what were called technical changes to 
the Coastal Barrier Resources System. We have heard Members argue that 
their constituents were adversely affected by incorrectly drawn 
boundary lines, failure to meet the number of structures per acre rule, 
the development of infrastructure prior to 1982, and bad advice from 
the U.S. Fish and Wildlife Service. There are even some property owners 
who simply do not want to be incorporated within the system, despite 
the fact that they built their homes with the full knowledge that 
federal flood insurance was unavailable.
    While some of these proposals have been enacted, it seems there is 
always another technical change in the pipeline and it is fair to say 
that the system is being undermined an acre at a time.
    There is no language in the Coastal Barrier Resources Act that 
stops a single property owner from building a home on a coastal barrier 
that he owns. However, the message of CBRA is that people can develop, 
but taxpayers won't pay. To protect taxpayers, human lives, and fragile 
habitat, such an owner may not fairly expect the public, through 
federal flood insurance and other government subsidies, to invest in 
such risky business within the CBRA system.
    It is my hope that today we can learn: how many acres have been 
removed from the system; how many have been added; what is the impact 
of the ongoing digital mapping effort; and what is the cumulative 
impact of legislative efforts to modify the system since 1982. I look 
forward to hearing from the U.S. Fish and Wildlife Service, the Federal 
Emergency Management Agency and Professor David Salveson, an expert on 
the Coastal Barrier Resources System.
    I am now pleased to recognize the Ranking Democratic Member of the 
Subcommittee, Congressman Frank Pallone.
                                 ______
                                 
    Mr. Gilchrest. At this point, I would like to yield to the 
gentleman from New Jersey, Mr. Pallone.

 STATEMENT OF THE HON. FRANK PALLONE, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. From time to time in 
Congress, we find it necessary to criticize the policies of the 
executive branch and, of course, it tends to occur more 
frequently when the other political party controls the 
Administration, and not surprisingly, the former Reagan 
Administration drew out a steady stream of criticism, 
particularly for their efforts to undermine policies designed 
to protect our common natural resource heritage.
    What is surprising, however, is that I believe that there 
was one aspect of environmental policy where the Reagan 
Administration actually got it right, and that instance was 
when the President signed the Coastal Barrier Resources Act 
into law on October 1, 1982.
    The fundamental weave of conservative fiscal policy and 
progressive land use planning has been demonstrated to be a 
cost-effective and market-oriented strategy to protect both the 
Federal taxpayer from shouldering ill-advised subsidies for 
risky coastal development and the legitimate rights of property 
owners to own and develop their land as they see fit. Not 
incidentally, this prudent and sensible combination has also 
resulted in the preservation of extremely valuable open space 
and coastal fish and wildlife habitats necessary to provide 
opportunities for public recreation, travel, and tourism and to 
maintain environmental quality along our nation's increasingly 
crowded coastlines.
    The August 2002 report released by the Fish and Wildlife 
Service perhaps best summed up the unique qualities of the Act 
when it stated, and I quote, ``The Act is the essence of free 
market natural resource conservation. It in no way regulates 
how people can develop their land, but transfers the full cost 
from Federal taxpayers to the individuals who choose to build. 
By limiting Federal subsidies and letting the market work, the 
Act seeks to conserve coastal habitat, keep people out of 
harm's way, and reduce wasteful Federal spending.''
    I agree with all this, I think we all do, but the question, 
as the Chairman has said, is where do we go from here? It has 
not escaped my notice that we regularly take up legislation 
introduced to address technical corrections to the boundaries 
of coastal barrier units or otherwise protected areas. Clearly, 
in my view, this circumstance is much more a reflection on the 
vast improvements made in recent years in geographic 
information systems and digital mapping techniques than it is 
with any inherent flaws in the Act's policies.
    But the question lingers, how should Congress best approach 
the need to modernize the system's maps, maps that are the 
physical embodiment of the Act's policies, but to do so without 
damaging or undermining the very policies that the maps 
represent?
    Also, despite the Act's effectiveness in preventing some 
coastal development, it is plainly apparent to the most casual 
observer that significant development continues to occur along 
our shores. We need to know why, and perhaps more directly, we 
need to know how other State and local development subsidies 
may interact to thwart the Act's market-based disincentives for 
development.
    Mr. Chairman, I hope that our witnesses can provide us with 
insights into these questions--I know you basically asked the 
same questions--as we look to reauthorize this important law 
and I think this hearing is important in that respect today. 
Thanks.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Our witnesses this morning are Dr. Benjamin Tuggle, Chief, 
Division of Federal Program Activities, U.S. Fish and Wildlife 
Service, who is accompanied by Ms. Katie Niemi; Mr. Anthony S. 
Lowe, Director, Mitigation Division and Federal Insurance 
Administrator, Federal Emergency Management Agency; and Mr. 
David Salvesen, Center for Urban and Regional Studies, 
University of North Carolina at Chapel Hill.
    I want to thank each of you for coming this morning, for 
taking the time out to help us with this issue, and I want to 
thank especially Mr. Anthony Lowe for his fine work and your 
professional crew that came into Maryland during the Isabel 
storm. They did a stunning job and it is well appreciated.
    We will begin this morning with Dr. Benjamin Tuggle. 
Welcome, sir.

  STATEMENT OF BENJAMIN N. TUGGLE, CHIEF, DIVISION OF FEDERAL 
PROGRAM ACTIVITIES, FISH AND WILDLIFE SERVICE, U.S. DEPARTMENT 
                        OF THE INTERIOR

    Dr. Tuggle. Thank you, Mr. Chairman. Mr. Chairman, Mr. 
Pallone, I thank you for this opportunity to testify on behalf 
of the Department of the Interior at this oversight hearing of 
the John H. Chafee Coastal Barrier Resources System. I am Dr. 
Benjamin Tuggle. I am the Division Chief for Federal Program 
Activities with the U.S. Fish and Wildlife Service.
    Before I proceed, Mr. Chairman, I would like to request 
that my written testimony be made part of the record.
    Mr. Gilchrest. Without objection, so ordered.
    Dr. Tuggle. Thank you. Mr. Chairman, I would like to begin 
my testimony by saying that the Service shares your concerns 
about the potential risk to the system from numerous boundary 
revisions. Our goal is to map the system accurately so that the 
delineations of the boundaries have lasting integrity.
    In September, the Service testified before this 
Subcommittee in support of three bills that would make system 
changes. Today, I will explain how we are working to maintain 
the integrity of the system and also discuss with you our 
mapping modernization process that the Service is currently 
pursuing.
    My written testimony discusses the legislative changes that 
have been made to the system over time and the processes and 
approaches the Service has developed to carry out our 
responsibilities under the Coastal Barrier Resources Act, or as 
we fondly refer to it, CBRA.
    Full system units comprised of private lands were first 
delineated in 1982 with the passage of CBRA. Full system units 
generally follow geographic features on the ground, such as 
rivers or roads that were easily discernible. System maps 
created at that time used the technology and base maps with 
inherent inaccuracies. In some cases, the system unit 
boundaries are drawn on base maps that do not precisely follow 
the intended geographical features. When this occurs, the 
result can be the inclusion of private property that were not 
originally intended to be part of the system.
    Most requests and proposed changes to the full system 
units, however, assert that the development criteria used to 
designate undeveloped coastal barriers were not appropriately 
applied when the unit was originally adopted. Accordingly, the 
Service examines proposed changes to the full system units. We 
look at the level of development that existed when the unit was 
created.
    The Service receives numerous requests to remove land from 
full system units. However, after objective review, we 
generally find that the development criteria were appropriately 
applied and the boundary changes are not warranted. In these 
cases, the Administration does not support a change.
    In 1990, Congress passed the Coastal Barrier Improvement 
Act, which expanded the system to create a new category under 
CBRA called ``otherwise protected areas,'' or OPAs. OPAs are 
intended to follow protected area boundaries, such as State 
parks or National Wildlife Refuges. Again, much like the 
original maps that we used for full system units, OPAs were 
originally mapped with limited resources and rudimentary 
mapping tools.
    Unlike changes to the system units, the Service often 
agrees that changes to OPAs are appropriate because OPA 
boundaries commonly do not coincide with the actual protected 
area boundaries. In those cases, OPAs sometimes include 
adjacent private lands due to the imprecise mapping techniques 
that were used. When these cases come to our attention, we work 
closely with interested land owners, local and State officials, 
and protected area managers to closely and comprehensively map 
the protected area boundaries with precise mapping tools.
    The benefits of converting the existing maps to a digital 
format go way beyond just correcting the depiction of the 
boundaries. As you know, Mr. Chairman, CBRA is a map-driven law 
that is poised for modernization, that can expand electronic 
government, improve customer service, and also complement 
existing efforts to conserve our nation's coastal resources.
    Congress recognized this when it passed the Coastal Barrier 
Resources Reauthorization Act of 2000. This Act directed the 
Service to conduct a digital mapping pilot project, and we are 
pleased to report to you that we are making significant 
progress in completing that directive.
    In our efforts to modernize the maps, the Service must work 
hand in hand with Congress in an open and consistent fashion. 
Currently, we are handling these cases on a case-by-case basis 
that are basically driven by Congressional offices and 
constituents. We address these individual cases in an unbiased, 
transparent way by objectively applying standard review 
criteria and explaining our findings to the Subcommittee and 
the interested parties.
    In the future, after presenting the results of our mapping 
pilot project, we hope to move from the current reactive case-
by-case process to a holistic, proactive approach. In that 
holistic approach, using the latest digital technology, we want 
to work closely with the Subcommittee to correct existing 
inaccuracies when they are found. Once the modernization effort 
is completed, we think that we will be in a stronger position 
to further the goals of CBRA.
    In closing, Mr. Chairman, the Administration supports CBRA 
and we want to continue to work with Congress to achieve CBRA's 
original intent. Our work to correct technical errors is only 
part of a broader goal to modernize all CBRA maps and to 
provide our customers and partners with the best information. 
We believe that we will help to achieve all three of CBRA's 
original goals, which were to save taxpayer money, protect 
people and their property, and to conserve valuable fish and 
wildlife habitat.
    Mr. Chairman, that concludes my prepared comments. Thank 
you again for this opportunity to testify today and I look 
forward to answering your questions.
    Mr. Gilchrest. Thank you, Dr. Tuggle.
    [The prepared statement of Dr. Tuggle follows:]

 Statement of Dr. Benjamin Tuggle, Chief, Division of Federal Program 
 Activities, Fish and Wildlife Service, U.S. Department of the Interior

    Mr. Chairman and members of the Subcommittee, I thank you for the 
opportunity to present the Administration's testimony for this 
oversight hearing on the John H. Chafee Coastal Barrier Resources 
System (System). I am Dr. Benjamin Tuggle, Chief of the Division of 
Federal Program Activities in the U.S. Fish and Wildlife Service 
(Service).
    In your request for testimony from the Administration, you 
requested that we provide a justification of how changes to System maps 
are beneficial to the integrity of the System as a whole. My testimony 
will attempt to do this by describing the Service's role in 
implementing the Coastal Barrier Resources Act (CBRA), the processes 
and approaches we have developed to carry out our responsibilities, 
legislative changes that have been made to the System since its 
creation, and the future direction we envision for the System.
    Mr. Chairman, the Administration strongly supports the intent of 
CBRA and its free-market approach to conservation. Congress has 
determined there is a high probability of repetitive storm damage to 
the Nation's coastal barrier islands and associated areas. It 
designated undeveloped coastal barrier areas as the Coastal Barrier 
Resources System and prohibited federal spending for flood insurance, 
roads, wastewater treatment systems and other types of infrastructure 
within the System. This minimizes the potential loss of human life and 
reduces wasteful federal expenditures, but in no way regulates how 
people can develop their land. Instead, it eliminates federal subsidies 
and insurance for development within these damage-prone areas, while 
imposing no restrictions on development done at private expense. Today, 
areas designated by CBRA and its amendments comprise approximately 3.1 
million acres of undeveloped coastal barriers along the Atlantic Ocean, 
the Gulf of Mexico, the Great Lakes, Puerto Rico, and the Virgin 
Islands. Individuals who choose to build and invest in these hazard-
prone areas will incur the full cost of that risk, instead of passing 
that cost on to the American taxpayers. It is estimated that by 2010, 
CBRA will have saved American taxpayers approximately $1.3 billion.
    CBRA has already greatly benefited the Nation, but we believe that 
it can do even more. CBRA's conservation accomplishments would be 
furthered if the federal government were to seek and develop 
partnerships with local and state governments and nongovernmental 
organizations to encourage conservation initiatives that complement the 
System. But in order to take these forward steps, we must first 
modernize the maps that delineate CBRA areas, enabling them to be more 
effectively coupled with other conservation initiatives. This map 
modernization process must ensure that the boundaries on CBRA maps are 
accurate. By proactively addressing the mapping inaccuracies, we will 
maintain the System's integrity, and will also be able to focus more of 
our limited resources on promoting partnerships.

Map Modernization
    CBRA is a map-driven law that is beginning to be modernized by 
expanding electronic government, improving customer service, and 
building upon existing tools used by our partners to conserve the 
Nation's coasts. Congress recognized this when it last reauthorized 
CBRA. The Coastal Barrier Resources Reauthorization Act of 2000 
directed us to conduct a Digital Mapping Pilot Project that would 
produce draft digital maps of 75 areas and estimate the cost and 
feasibility of completing digital maps for all CBRA areas. We are 
pleased to report that we are making progress on completing the pilot 
project.
    In our efforts to modernize the maps, we must work hand-in-hand 
with Congress in an open, objective, and consistent process. Currently, 
this is occurring on a case-by-case basis that is driven by requests 
from Congressional offices and constituents. We address these 
individual cases in an unbiased and transparent way by objectively 
applying standard review criteria and explaining our findings to the 
interested parties and to the Subcommittee.
    In the future, after presenting the results of the pilot project, 
we hope to move from the current reactive case-by-case process, to a 
holistic proactive process. Once the modernization and perfecting 
effort is completed, we will be in a stronger position to further the 
goals of CBRA.
    There are many potential benefits to converting the existing maps 
to digital format. Ultimately, consistent with the President's E-
Government Initiative, CBRA maps could be posted on the Internet for 
greater public access and incorporated into local government planning 
databases. The Service will also work with federal agencies involved in 
mapping, such as the U.S. Geological Survey and others, to work toward 
reducing redundancies. This would help ensure that people know about 
CBRA's restrictions on federal spending before they choose to invest in 
a property affected by the law. Modernizing the maps would give 
landowners, insurance providers, federal agencies, and state and local 
planners a more precise and accessible tool for determining boundary 
locations, making investment decisions, issuing flood insurance 
policies, and managing coastal areas. Having an accurate baseline of 
digital maps will allow the Service to be more proactive in the future 
in recommending additional areas to Congress for inclusion in the 
System.
    Digital maps could also be incorporated into programs administered 
by our partner agencies, such as the Federal Emergency Management 
Agency's National Flood Insurance Program. Instead of consulting with 
the Service, these agencies would be able to conduct an accurate 
preliminary analysis regarding whether CBRA restrictions apply.
    By making CBRA maps easily available in digital format, we could 
work with our partners to encourage increased bundling of conservation 
tools to meet CBRA's conservation goals. The Service has observed that 
CBRA is most effective when our partners complement their conservation 
approaches with the law's fiscal disincentive. For example, the State 
of Texas prohibits State-backed windstorm insurance within the System, 
adding another layer of fiscal disincentive to build in these 
locations. In North Carolina, the National Audubon Society has targeted 
its land acquisition investments in a CBRA area, providing long-term 
protection to the fish and wildlife habitat.
    Modernizing existing maps will take time, but electronic governance 
is clearly the future for the Act. Our goal is to map the full System 
units and ``otherwise protected areas'' accurately and precisely to 
provide the System and OPAs with lasting integrity. Mr. Chairman, we 
share your concern of the potential risk to the System from numerous 
boundary revisions, which could over time make it a victim of ``death 
by a thousand cuts.'' Our efforts to perfect the boundaries of CBRA 
areas through an open and objective process are being undertaken to 
prevent this from occurring.

Legislative Changes to the John H. Chafee Coastal Barrier Resources 
        System
    Mr. Chairman, you asked us to assess the legislative changes that 
have been made to the System since it was created in 1982. Before doing 
so, it is important to distinguish between the two different classes of 
CBRA areas, and to describe how we approach proposed changes to these 
different types of areas. The different classes of CBRA areas are: (1) 
the private lands component, or ``full System units,'' and (2) 
``otherwise protected areas,'' or OPAs. More detailed information about 
full System units and OPAs, and the processes by which the Service 
reviews proposed changes to them, can be found in Attachment 1.
    Most proposed changes to full System units assert that the 
development criteria used when the units were created were incorrectly 
applied. The development criteria were applied to areas at the time 
they were considered for inclusion in the System, and relate to the 
density of development and the level of infrastructure (see Attachment 
1 for more information). When the Service examines proposed changes to 
full System units, we look at the level of development that existed 
when the unit was created. The Service receives numerous requests to 
remove land from full units of the System, however, after objective 
review, we generally find that the development criteria were 
appropriately applied in the past and boundary changes are not 
warranted. We would like to note that there have been cases in the past 
where Congress has enacted changes to full System units that were not 
supported by the Service.
    Unlike changes to full System units, the Service often agrees that 
changes to OPAs are appropriate because almost every one of the OPAs is 
mapped inaccurately. Full System units generally follow geographic 
features on the ground that are easily discernable. We believe, 
however, that Congress intended OPAs to follow protected area 
boundaries. We regularly uncover cases where OPA boundaries do not 
coincide with the actual protected area boundaries we believe they are 
meant to follow. When these cases come to our attention, we work 
closely with interested land owners, local and state officials, and 
protected area managers to correctly map the protected area boundaries 
with the high quality mapping tools now available.

Comprehensive Mapping Approach
    If after applying our review process for full System units and 
OPAs, the Service finds a technical mapping error that warrants a 
change in one part of a CBRA map, we review all adjacent areas to 
ensure the entire map is accurate. This comprehensive approach to map 
revisions treats all landowners who may be affected equitably, and it 
also ensures that Congress and the Administration will not have to 
revisit the map in the future. This approach allows us to improve the 
integrity of the entire System by looking at boundary revisions in a 
holistic fashion instead of pursuing incremental fixes for individual 
areas on a single map.
    This comprehensive approach was developed by the Service, in close 
coordination with the Subcommittee staff, beginning in 1999 with NC-
03P, Cape Hatteras National Seashore. Since 1999, there have been seven 
legislative changes to System units and OPAs. Each of these changes was 
thoroughly scrutinized by the Service, Congressional members and staff, 
appropriate state and local officials, and property owners. In all of 
these cases but one (DE-03P, Cape Henlopen State Park), the 
comprehensive mapping approach was applied. The comprehensive mapping 
approach was in each case a lengthy process, sometimes taking over a 
year to complete. Congress has not adopted any changes that the Service 
did not support since we have instituted this high-precision and 
inclusive approach.
    Although the comprehensive mapping approach is preferred, we have 
deviated from it in limited circumstances when it proves impossible or 
when the equities of a particular situation make a targeted map 
revision appropriate. We have learned over the years that each new CBRA 
case can present unforeseen circumstances, and we must be flexible to 
appropriately address each case.

Assessment of Legislative Changes
    Between the enactment of CBRA in 1982 and the enactment of CBIA in 
1990, there were no changes made to full System units through 
legislation. The CBIA created OPAs and new full System units, and made 
changes to numerous existing full System units. The CBIA replaced all 
the 1982 maps with updated 1990 maps. Our information indicates that 
since the enactment of the CBIA in 1990, there have been 41 separate 
changes made to CBRA areas through legislation. Of the 41 legislative 
changes, 19 were made to OPAs and 22 were made to full System units. 
Most of the 41 changes made since 1990 removed land from CBRA areas. 
These legislative changes are listed in Attachment 2.
    It is significant to note that since the comprehensive mapping 
approach was developed in 1999, the frequency of enacted legislative 
changes has slowed. Between 1999 and 2003, legislative changes were 
made to seven CBRA areas. By comparison, between 1991 and 1998, 
legislative changes were made to 34 CBRA areas. It is also significant 
to note that the comprehensive approach can yield significant increases 
to OPAs; since 1999, some of the changes added protected lands in 
addition to removing private lands.
    Mr. Chairman, you asked us to account for total acres removed from 
and added to CBRA areas by these legislative changes. Unfortunately, we 
don't have that information, and it was not possible for us to conduct 
the research to compile this information in time for today's hearing. 
As I just mentioned, the majority of the legislative changes were made 
before 1999, and were done using the old mapping technology. In order 
to account for the total acreage change, we would need to compare the 
original maps with the amended maps. This process is lengthy and 
resource intensive, especially for the large number of changes that 
were made prior to 1999. Consequently, we can provide to you, for the 
record, acreage changes made since we began implementing our 
comprehensive mapping approach in 1999.
    We recognize the importance of tracking acreage changes to CBRA 
areas. As we carry out our comprehensive mapping approach to all new 
changes, we use the digital technology to accurately calculate acreage 
changes, and ensure that such changes are accurately tracked and 
recorded.

Technical Correction Bills Pending Congressional Action
    Mr. Chairman, you also asked us how many additional changes are 
pending Congressional action. There are technical correction bills for 
six CBRA areas currently pending Congressional action. The Service 
testified before this Subcommittee in September in support of H.R. 154, 
H.R. 2501, and H.R. 3056. The other CBRA areas are addressed by H.R. 
3333 and S. 1643; these bills have not yet been reviewed by the 
Subcommittee, nor has the Administration stated a position on these two 
bills.

Conclusion
    In closing, Mr. Chairman, we will continue to work with Congress to 
achieve CBRA's intentions and ensure the System's boundaries are 
accurately delineated. Our work to correct technical errors is one part 
of our broader goal to modernize all CBRA maps and provide our partners 
and customers with better information. We believe this will help 
achieve all three of CBRA's intentions: saving taxpayers' money, 
keeping people out of the deadly path of storm surge, and protecting 
valuable habitat for fish and wildlife.
    The Administration strongly supports the intent of CBRA and its 
free-market approach to coastal protection. Despite the challenges 
presented by the fact that the controlling CBRA maps were drawn using 
the imprecise mapping tools of the past, the Administration believes 
that the intent of CBRA has largely been achieved. We look forward to 
working with you to enact digitized maps for all CBRA areas that will 
help us further the goals of the Act.
    Mr. Chairman, this concludes my prepared statement. Thank you again 
for the opportunity to testify at today's hearing. I would be pleased 
to respond to any questions.

ATTACHMENT 1
            John H. Chafee Coastal Barrier Resources System
                          legislative changes

Full System Units
    The private lands component of the System was first delineated in 
1982 with the passage of the original CBRA. These original units 
encompassed approximately 590,000 acres of privately owned, undeveloped 
coastal barriers along the Atlantic and Gulf coasts. The undeveloped 
status of System lands was an important underpinning of the law. The 
Act sought to discourage new construction in these hazard-prone and 
environmentally sensitive areas that were not yet developed. However, 
the Act did not seek to apply its disincentives to existing communities 
where significant investments had already been made.
    The Department of the Interior published guidance in the Federal 
Register that established two criteria to define undeveloped coastal 
barriers. These criteria, applied to areas at the time they were 
considered for inclusion in the System, are as follows. (1) The density 
of development on an undeveloped coastal barrier is less than one 
structure per five acres of land above mean high tide. (2) An 
undeveloped coastal barrier does not contain a full complement of 
infrastructure. A full complement of infrastructure consists of a road, 
fresh water supply, wastewater disposal system, and electric service to 
each lot or building site in the area. The purpose of the 
infrastructure criterion was to exclude subdivisions where a 
significant amount of private capital had been spent prior to 
Congressional designation. Congress codified these criteria in the 2000 
reauthorization of CBRA.
    The boundaries of full System units are drawn on U.S. Geological 
Survey topographic quadrangle maps, most of which are decades old. In 
nearly all cases, we have an understanding of the intent of the lines 
that define full System units. These lines generally follow particular 
features depicted on the underlying maps, such as wetlands 
demarcations, roads, streams, and other landscape features. However, as 
the courts, our attorneys, and Congress have repeatedly told us, the 
line as drawn on the map is the law, and we must make determinations 
based on where the line actually falls on the ground, not where the 
Service believes Congress intended it to fall. Because of the 
inaccuracies inherent in the depiction of features on the base maps and 
in the drawing of CBRA lines, most of the 585 full System units contain 
minor inaccuracies. In most cases, these minor inaccuracies don't 
affect structures or properties, and therefore are not the focus of 
proposed legislative changes.
    Most proposed changes to full System units assert that the 
development criteria were incorrectly applied when the units were 
created. Accordingly, when the Service examines proposed changes to 
full System units, we look at the level of development that existed 
when the unit was created. When presented with credible information 
that indicates that the development criteria were not appropriately 
applied, we review the administrative record, review any additional 
information provided by the interested parties, prepare draft revised 
maps of the area if appropriate, and then present Congress with the 
factual findings and draft revised maps. If Congress chooses to adopt 
the revised maps, it then enacts new maps for the area through 
legislation. If the Service finds that the development criteria were 
appropriately applied when a unit was designated, we do not support 
changes to the unit.
    The Service receives numerous requests to remove land from the 
System, however, after objective reviews, we generally find that the 
development criteria were appropriately applied in the past and 
boundary changes are not warranted. Consequently, we have supported 
very few changes to full System units. Since 1999, we have only 
supported one change based on the development criteria to remove land 
from a full System unit (the unit is T07, the subject of H.R. 154). We 
would like to note that there have been cases in the past where 
Congress has enacted changes to full System units that were not 
supported by the Service.

Otherwise Protected Areas
    OPAs were first delineated in 1990 with the passage of the Coastal 
Barrier Improvement Act (CBIA). Congress created OPAs to limit federal 
subsidies in coastal barriers that are protected (that is, areas 
already held for conservation purposes, such as state parks and 
National Wildlife Refuges). Unlike full System units, with their wide 
array of restrictions on federal spending, only federal flood insurance 
is prohibited in OPAs. This restriction sought also to discourage 
development within private in holdings. In total, about 1.8 million 
acres are within OPAs.
    Unlike changes to full System units, the Service often agrees that 
changes to OPAs are appropriate because almost every one of the 271 
OPAs is mapped inaccurately. Full System units generally follow 
geographic features on the ground that are easily discernable. We 
believe, however, that Congress intended OPAs to follow protected area 
boundaries. These are more difficult to ascertain because they are 
based on property boundaries, not geographic features. When OPAs were 
first designated more than a decade ago, they were mapped with limited 
resources and rudimentary mapping tools. As a result, OPAs could not 
be, and were not, mapped with the highest degree of accuracy.
    We regularly uncover cases where OPA boundaries do not coincide 
with the actual protected area boundaries we believe they were meant to 
follow. OPAs sometimes include adjacent private lands that are not in 
holdings. Because of the OPA designation, the owners of these lands 
cannot obtain federal flood insurance for their homes. We believe that 
Congress did not intend to include such adjacent private lands within 
the OPAs. When these cases come to our attention, we work closely with 
interested landowners, local and state officials, and protected area 
managers to correctly map the protected area boundaries with the high-
quality mapping tools now available. All of the changes that have been 
made to the CBRA areas since 1999 were supported by the Service, and 
nearly all of these changes were to OPAs.
                                 ______
                                 
ATTACHMENT 2
            John H. Chafee Coastal Barrier Resources System
                          legislative changes

    <bullet>  Since the enactment of the Coastal Barrier Resources Act 
(CBRA) in 1982, several changes have been made to CBRA areas through 
legislation.
    <bullet>  Between 1982 and 1990, no changes were made.
    <bullet>  The Coastal Barrier Improvement Act (CBIA) of 1990 
created otherwise protected areas (OPAs) and new full System units. All 
1982 maps were replaced with updated 1990 maps.
    <bullet>  After passage of the CBIA in 1990, stand-alone changes 
(i.e., changes that were not a part of a comprehensive reauthorization 
like the CBIA) to CBRA areas started to be made through legislation.
    <bullet>  A total of 41 separate changes have been made through 
legislation since the passage of the CBIA.
    <bullet>  No changes were made in 1991.
    <bullet>  Between 1992 and 1998, changes made to 34 CBRA areas as 
follows:

[GRAPHIC] [TIFF OMITTED] T0579.001


    <bullet>  In 1999, the comprehensive mapping approach was developed
    <bullet>  Between 1999 and 2003, changes were made to seven CBRA 
areas as follows below. Of these seven, five resulted in removal of 
developable private land. One of these changes (DE-03P) did not follow 
the comprehensive approach.

[GRAPHIC] [TIFF OMITTED] T0579.002


                                 ______
                                 

   Response to questions submitted for the record by Dr. Benjamin N. 
 Tuggle, Chief, Division of Federal Program Activities, U.S. Fish and 
                            Wildlife Service

Questions from The Honorable Frank Pallone
    1) What were the results of the economic assessment of the System 
that was mandated by the Congress in P.L. 106-514?
    Public Law 106-514 directed the Department of the Interior to 
assess the impact of the Coastal Barrier Resources Act (CBRA) on 
federal spending resulting from the avoidance of federal expenditures 
for disaster relief, development assistance (for roads, wastewater 
systems, and potable water supply), and the National Flood Insurance 
Program (NFIP).
    The study estimated that from 1983 through 2010, CBRA's 
restrictions on expenditures for disaster relief and development 
assistance will have resulted in a combined federal savings of about 
$1.278 billion. Development assistance comprises about 93 percent of 
this total savings. The study also noted that the NFIP, which is the 
most important deterrent to development of the System, probably yields 
no federal taxpayer savings. NFIP is required to be self-sufficient, 
with income from policy premiums exceeding expenses.
    A copy of the study is available at the following web address: 
www.fws.gov/cep/TaxpayerSavingsfromCBRA.pdf.
    2) There are cases where developers have been incorrectly advised 
by the U.S. Fish and Wildlife Service that their property was not 
within the System and based on those assurances they built houses or 
subdivisions.
    <bullet>  Since the property was always within the System, what 
responsibility, if any, does the Federal Government have in these 
situations?
    One of the Service's responsibilities under CBRA is to determine 
where the lines drawn on congressionally-enacted maps actually exist on 
the ground. We have consistently applied the best available technology 
to fulfill this responsibility. However, as the technology available to 
us improves, we find that the enacted lines contain inherent 
inaccuracies. That is, the lines don't always mirror what we believe 
the intent of Congress was in drawing the lines. On occasion, this can 
result in situations where properties that don't appear to be included 
in a CBRA area are revealed by higher precision technology to actually 
be a part of the CBRA area.
    The Service has recently learned of cases where our field personnel 
issued incorrect property determinations in the past. The 
determinations were made in good faith, using the best tools available 
at the time. Based on determinations from the Service, the NFIP 
notified landowners that their respective properties are not affected 
by CBRA and therefore are eligible for federal flood insurance. 
Subsequently, upon using higher precision mapping tools that were not 
available in the past, the Service discovered some instances of 
incorrect past determinations. The NFIP does not honor incorrect 
determinations and, therefore, must cancel such insurance policies upon 
learning of the mistake.
    In such situations where the Service has provided incorrect 
information to citizens, we believe the federal government should 
provide a remedy to those citizens for the financial impact of that 
incorrect information. We want to honor our past determinations so that 
property owners who received incorrect determinations could retain 
their federal flood insurance. The remedy will need to be determined 
based on the facts for each situation, but could include making 
recommendations to Congress for private relief legislation or 
comprehensive map revisions in cases where the Service believes 
affected properties were not originally intended to be part of a CBRA 
area.
    3) Should the Congress consider enacting legislation that would 
allow the Department of the Interior to make small technical changes to 
the Coastal Barrier Resources System maps when minor mistakes are 
discovered?
    The Service believes that all decisions to make changes to CBRA 
lines should remain with Congress. Furthermore, we believe that the 
completion of the Digital Mapping Pilot Project will help provide a 
solution to the issue of the need to make technical changes. The Report 
to Congress that will accompany the pilot project will address the 
different types of changes and the extent of changes that will be 
necessary to accurately portray CBRA boundaries on modern digital maps. 
We will provide recommendations for how to revise and perfect all CBRA 
maps, making the need for technical changes in the future very rare. We 
believe that we should continue our close working relationship with 
Congress as decisions on boundary changes are proposed.
    4) In your written testimony you state that ``conservation 
accomplishments would be furthered if the federal government were to 
seek and develop partnerships with local and state governments and 
nongovernmental organizations to encourage conservation initiatives 
that complement the System.''
    <bullet>  Could you please expand on this thought? What types of 
programs are you referencing?
    The Service has observed that CBRA works best when its fiscal 
disincentives are complemented by other conservation approaches, 
implemented by our partners, in the same areas. We know that when the 
economic incentive for development is extremely high, development will 
occur in CBRA areas despite the Act's restrictions on federal spending. 
Some state and local governments and non-governmental organizations 
have employed their own approaches to maintain the natural state of 
coastal barriers before the economic incentive for development 
surpasses CBRA's fiscal disincentive. We believe that by digitizing 
CBRA areas we will provide local communities with important information 
they can use to make land use planning decisions. This will enable us 
to conduct outreach to encourage our partners to develop conservation 
approaches that complement CBRA.
    Conservation of lands designated under CBRA could be better 
achieved if conservation programs such as zoning regulations, targeted 
land acquisition, long-term and voluntary conservation easements, and 
tax policy that rewards conservation reinforce CBRA's goals. This is 
already occurring in some areas. Texas, for example, prohibits State-
backed windstorm insurance for property in the Coastal Barrier 
Resources System, adding another layer of fiscal disincentive for 
development to CBRA's free-market approach. On Dauphin Island in 
Alabama, State and local policies have also reinforced CBRA's goals. 
The State's coastal construction control line coincides with the System 
boundary, and Dauphin Island has zoned the entire area for conservation 
and parkland. Many of these state and local activities are undertaken 
under the auspices of State Coastal Management Plans under the Coastal 
Zone Management Act, which is administered by the National Oceanic and 
Atmospheric Administration (NOAA) in the Commerce Department. In recent 
years, Congress has also appropriated Coastal and Estuarine Land 
Conservation Program grant funds to NOAA to facilitate state and local 
acquisition of particularly sensitive coastal lands.
    CBRA's restrictions on federal spending may provide incentive to 
landowners to sell property that is a part of the System, or to agree 
to conservation easements on their properties. Therefore, state and 
local conservation programs may benefit by targeting their land 
acquisition efforts in the System. For example, the National Audubon 
Society is buying System lands in North Carolina and will hold them in 
trust for fish and wildlife resources in perpetuity.
    Examples of the pairing of local, state, and non-governmental 
conservation initiatives with CBRA are few. However, digitizing CBRA 
areas will enable the Service to conduct efficient, effective, and 
expansive outreach and provide digital information to local 
communities. A primary focus of a future outreach effort will be to 
encourage more pairing of other conservation initiatives with CBRA.
    <bullet>  Should such arrangements or partnerships be formally 
authorized under the Act or does the Service believe that it has 
adequate authority right now?
    It would be most practicable to explore complementary conservation 
efforts when all CBRA areas are digitized and made available to our 
partners via the Internet and other methods. The Service believes that 
it currently has the authority to conduct outreach and develop and 
strengthen partnerships to complement CBRA.
    5) As the maps for the System become increasingly digitized, do you 
foresee the need to modify the corrections process when questions are 
raised regarding boundaries?
    As the maps for the System become digitized, the Service does not 
foresee a need to modify the corrections process when questions are 
raised regarding boundaries. When interested parties seek changes to 
System or OPA boundaries, the Service applies standardized mapping 
procedures and objective review criteria to determine whether a change 
is appropriate. When the Service finds a technical mapping error in one 
part of a coastal barrier map, we review all other nearby boundaries to 
ensure they are mapped accurately. We work with interested parties as 
appropriate to produce draft maps that we provide to Congress for 
consideration. This comprehensive approach to boundary changes treats 
all landowners equitably and prevents Congress and the Administration 
from having to revisit the same areas in the future. The processes and 
approaches we currently use to assess changes to CBRA areas would also 
be applied to the review of proposed changes to CBRA areas that are 
depicted on digital maps.
    <bullet>  How can we be confident that any transition to a new 
corrections process and digitized maps will not result in areas being 
excluded from the System?
    The Service's goal regarding digitizing CBRA areas is to work with 
Congress to maintain the long-term integrity of the System and OPAs by 
ensuring that the boundaries on CBRA maps are accurate. Any transition 
from the current CBRA maps to maps prepared with digital technology 
must be approved by the Congress. The Service supports continuing our 
ongoing efforts by recommending the legislative adoption of digital 
maps that make changes to CBRA lines to ensure those lines are accurate 
(i.e., they follow the features and/or boundaries that they were 
intended to follow). The Service would make recommendations based on 
research of the administrative record for each CBRA area.
    Changes made to CBRA lines by digital maps adopted by Congress in 
the future will likely result in some areas being removed from, and 
some areas being added to, System units and OPAs. However, because the 
digitization process will make the boundaries accurate, it will help 
ensure the integrity of the System over time. In making recommendations 
to Congress, the Service will continue to apply a high level of 
objective scrutiny to all proposed changes to CBRA areas, including 
during any large-scale process of adopting digitized CBRA maps. The 
Service will continue to oppose changes in cases where our objective 
review indicates that the area was appropriately mapped and designated 
as a System unit or OPA.
    The Digital Mapping Pilot Project will be a first step in any 
large-scale transition to digital maps. The pilot project will digitize 
and perfect the boundaries of 50 System units and 25 OPAs (in the form 
of draft digital maps). The pilot project will help to identify 
potential problems that could occur in making a transition to digital 
maps, and will propose solutions to those problems. It is difficult to 
speculate at this juncture whether the maps produced for the pilot 
project will result in a net acreage loss or gain to the System and 
OPAs if they are enacted by Congress. We anticipate that there may not 
be any significant net change. There may even be a net gain to OPAs if 
we uncover coastal barriers held for conservation purposes that are not 
currently designated as OPAs and these areas are designated as OPAs in 
the future.
    The System (i.e., non-OPA) maps prepared for Congress as part of 
the pilot project will recommend boundary modifications due to natural 
changes (erosion and accretion) as well as ``intent changes.'' 
Recommended intent changes will be based on research of the 
administrative record. An example of an intent change is a change to a 
boundary that was intended to follow the edge of a road but actually 
inadvertently bisects private properties on the other side of the road 
that were not intended to be part of the System.
    The OPA maps prepared for Congress as part of the pilot project 
will recommend boundary modifications in cases where the OPA boundaries 
do not coincide with the protected area (e.g., state or national park) 
boundaries. We anticipate some of these recommended changes would 
remove private lands that are not part of protected areas, while other 
changes would add protected lands that are not currently part of OPAs.
    We are confident that the results of the pilot study and 
accompanying report will demonstrate to Congress that all CBRA areas 
can be digitized in a process that will maintain the integrity of the 
System and OPAs, and will only remove areas from CBRA designation that 
were not intended to be so designated. Additionally, only Congress can 
make changes to the existing CBRA maps and can enact a transition to 
digital maps. As such, Congress itself has the ability to ensure that 
map changes that are inconsistent with CBRA are not made.
    <bullet>  Would a systematic review of the OPA boundaries be an 
appropriate place to start once the pilot digital maps are completed?
    If the 75 CBRA areas in the Digital Mapping Pilot Project are 
enacted, there will be a variety of possibilities for prioritizing the 
consideration of the next set of digital maps. For example, one 
possibility, dependent on the availability of resources, is to make 
changes to all CBRA maps (both System units and OPAs) on a state-by-
state basis. Another is to do a systematic review of OPAs. We 
anticipate that our Digital Mapping Pilot Project and Report to 
Congress will contain the Administration's recommended approach. Until 
the project is completed, we cannot provide a recommendation.
    With regards to a systematic review of OPAs, we note that many CBRA 
maps contain both OPAs and System units. If we were directed to review 
OPA boundaries first, we would request the ability to maintain our 
comprehensive mapping approach. This approach attempts to remap all 
CBRA areas on a map at the same time so that the entire map is 
corrected. This would mean that we would want to review any System 
units that are depicted on any OPA maps that we are directed to review.
                                 ______
                                 
    Mr. Gilchrest. Mr. Lowe?

STATEMENT OF ANTHONY S. LOWE, FEDERAL INSURANCE ADMINISTRATOR, 
AND DIRECTOR, MITIGATION DIVISION, FEDERAL EMERGENCY MANAGEMENT 
            AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Lowe. Mr. Chairman, thank you so much for your kind 
words. I will pass those on to the disaster staff as well as 
the Region III folks who really did the best they could to try 
to get it right for the State of Maryland.
    Mr. Chairman, Ranking Member Pallone, members of the 
Subcommittee, my name is Anthony Lowe, Federal Insurance 
Administrator and Director of the Mitigation Division of the 
Federal Emergency Management Agency, FEMA, of the Department of 
Homeland Security. On behalf of the National Flood Insurance 
Program, the NFIP, we welcome and appreciate the invitation to 
appear today before the Fisheries Conservation, Wildlife, and 
Oceans Subcommittee.
    One of the main goals of FEMA in the Department of Homeland 
Security is to reduce the loss of life and property from 
natural and man-made disasters. The National Flood Insurance 
Program was established to reduce the nation's risk to the 
devastation of flood losses. The NFIP has a three-pronged 
approach to achieving its purpose, working with communities: 
First, identifying flood-prone areas; second, encouraging 
communities to adopt sound flood plain management; and last, 
our promise to offer NFIP flood insurance in eligible 
communities to homeowners and businesses. There are nearly 
20,000 NFIP communities across the country.
    FEMA strongly supports the U.S. Fish and Wildlife Service 
in its work to delineate the Coastal Barrier Resources System. 
As you know, these systems prohibit Federal insurance and 
investments that would lead to development in these sensitive 
protected areas. Currently, FEMA reflects the system boundaries 
in our flood insurance rate maps. In addition, the National 
Flood Insurance Act prohibits the NFIP from providing flood 
insurance for buildings constructed or substantially improved 
after placement into the system.
    While the Coastal Barrier Resources Act does not prevent 
private flood insurance in these areas, there is not a well-
defined market for private flood insurance generally, nor in 
particular as it pertains to the Coastal Barrier Resources 
System areas. Private flood insurance availability in these 
areas is inconsistent and largely depends on local transactions 
and practices. In our experience, private carrier premium rates 
are typically higher than NFIP premium rates.
    Briefly, I would like to directly answer the questions 
raised by this Subcommittee. One, what would be the additional 
cost for providing NFIP coverage for properties that are 
removed from the system through legislative changes? Mr. 
Chairman and members of the Committee, in general, the NFIP 
uses full actuarial rates for such structures. Therefore, there 
are no additional costs to the program. From a risk 
perspective, buildings formerly in the system are rated similar 
to other high-risk buildings currently in the NFIP. Typically, 
flood insurance premiums for compliant structures in high-risk 
areas can range anywhere from $500 to $5,000 annually.
    The second question, what would happen to homeowners whose 
policies are canceled because they were found to be within the 
system? In short, their NFIP policy would be canceled. In 
practice, two situations can result in cancellation of an NFIP 
policy. One, if an existing insured structure is substantially 
improved or damaged, the NFIP policy would not be renewed. Two, 
if an insured building is later shown to be in the system and 
not eligible for a Federal insurance policy or coverage, the 
policy would be canceled and the premium refunded. In these 
instances, the homeowner would have to seek coverage from the 
private sector.
    Your last question, what is the cost difference between the 
Federal and private flood insurance coverage? We have little 
data to actually validate specific private insurance rates in 
the Coastal Barrier Resources System. However, our experience 
suggests that private insurance premiums are substantially 
higher. In fact, our research indicates that private insurance 
can be twice the cost of an NFIP policy.
    In conclusion, the mission of the NFIP is to reduce loss of 
life and protect property by accurately identifying flood 
risks, encouraging sound flood plain management, and insuring 
properties in eligible communities. We appreciate the 
opportunity to support the Service and look forward to its 
digital mapping data to better identify these system areas.
    Again, I thank the Subcommittee for this opportunity to 
testify and look forward to answering any questions you may 
have. Thank you.
    Mr. Gilchrest. Thank you, Mr. Lowe.
    [The prepared statement of Mr. Lowe follows:]

  Statement of Anthony S. Lowe, Federal Insurance Administrator, and 
  Director, Mitigation Division, Federal Emergency Management Agency, 
                    Department of Homeland Security

    Chairman Gilchrest, Ranking Member Pallone, and Members of the 
Subcommittee, I am Anthony S. Lowe, Federal Insurance Administrator, 
and Director of the Mitigation Division of the Federal Emergency 
Management Agency of the Department of Homeland Security. On behalf of 
the National Flood Insurance Program (NFIP), we welcome and appreciate 
the invitation to appear today before the Fisheries Conservation, 
Wildlife and Oceans Subcommittee of the Committee on Resources.
Background
    One of the main goals of the Department of Homeland Security's 
Federal Emergency Management Agency (FEMA) is to reduce loss of life 
and property from the effects of natural and man-made hazards. The 
National Flood Insurance Program (NFIP) was established to reduce the 
Nation's risk to the devastation of flood loss. The NFIP has a three-
pronged approach for achieving this goal. First, the flood hazards are 
identified, and FEMA provides NFIP maps that identify flood-prone areas 
and provide a basis for an actuarial rate for properties located in 
them. Second, the program requires that communities adopt and enforce 
sound flood plain management ordinances based on these maps and 
proactively manage development in the identified hazard areas. Third, 
flood insurance is available to residents of those communities to 
protect against potential economic loss from flooding.
    FEMA supports the U.S. Fish and Wildlife Service (FWS) in 
administering and updating the Coastal Barrier Resources Systems 
(CBRS), which reduces and restricts Federal Government actions and 
investments that would result in development in these protected areas 
by reflecting CBRS boundaries on our NFIP maps. The purpose of the CBRS 
is to protect undeveloped, environmentally sensitive places. The 
National Flood Insurance Act prohibits the NFIP from providing flood 
insurance for buildings constructed or substantially improved after 
placement in the CBRS.
    When Congress passes a law that revises CBRS boundaries, FEMA 
coordinates with the FWS to revise the flood insurance rate maps. FWS 
provides revised maps and the new boundaries are transferred onto the 
flood maps where flood insurance prohibition dates are noted. FEMA then 
presents these draft maps to the FWS for review and concurrence. The 
maps are then published and used by the lending and insurance 
industries. We have worked closely with FWS and our joint efforts have 
resulted in reducing the time it takes to finalize revised maps. We 
also coordinate with the FWS to disseminate information via letters and 
our website to state and local governments, lending institutions, and 
the insurance industry to keep stakeholders apprise of changes.
    While FEMA mitigation measures serve to protect buildings, FEMA 
appreciates its role in cooperating with FWS to prevent damage to 
fragile coastlines. We understand that damage to fragile ecosystems can 
be long-lasting or irreparable and support FWS in their mission.
Flood Insurance Availability
    Eligibility for Federal flood insurance in CBRS depends upon 
whether the community in which the building is located is impacted by 
the 1982 or the 1990 Act. While the rules regarding coverage are 
detailed, generally, a CBRS building will be covered by the NFIP under 
either Act under the following circumstances:
    <bullet>  There was a legally valid building permit for 
construction of the building issued prior to a statutory cut off date 
(October 1, 1983, for the 1982 Act, November 16, 1990, for the 1990 
Act);
    <bullet>  Construction began or was complete prior to the statutory 
cutoff date; and
    <bullet>  The building was not substantially damaged or improved 
after the statutory cutoff date.
Flood Insurance Costs
    NFIP policy rates are set according to the property's zone, which 
takes into account various flood risk factors. Rates are generally 
commensurate with the risk. Flood insurance premiums for compliant 
structures in flood-prone areas typically range from $500 to $5,000 
annually.
    The CBRS Act of 1982 does not prevent private development, 
financing or private flood insurance in the CBRS. Private flood 
insurance availability in CBRS areas is inconsistent, and largely 
dependent on local business practices. Companies may provide flood 
insurance in the CBRS, but are unlikely to market such an insurance 
product. Private carrier premium rates are typically higher than NFIP 
premium rates.
Subcommittee Questions
    I would like to address the questions raised by this Subcommittee. 
First, what would be the additional costs for providing NFIP coverage 
for properties that were removed from the CBRS through legislative 
changes? Second, what would happen to homeowners whose policies were 
cancelled because they were found to be within the system? And, third, 
what is the cost difference between federal and private flood 
insurance?
    In response to the first question, in general, the NFIP uses 
actuarial rates for such structures, and, in these cases, there will be 
no additional costs to the program. This is due to the fact that 
buildings in the CBRS would generally--from a risk perspective--be 
similar to other high-risk buildings currently in the NFIP. There may, 
however, be costs from an environmental perspective that the Fish and 
Wildlife Service can address.
    There are two possible situations that can result in the NFIP 
coverage being cancelled. If an existing insured structure is 
substantially improved or damaged, the NFIP policy will not be renewed. 
Or, if an insured building is shown to be in the CBRS and not eligible 
for the Federal flood insurance, the NFIP policy will be cancelled and 
premium refunded when the error is discovered. The homeowner would have 
to seek coverage from the private sector.
    In such a case, there will be cost implications for the homeowner 
seeking private insurance, because (as noted earlier) private insurance 
will be more expensive. In fact, our sources indicate, flood insurance 
purchased from the private sector might cost twice as much as NFIP 
flood insurance coverage.
Conclusion
    The mission of NFIP is to reduce flood damages, loss of life, and 
economic disruption by accurately identifying flood risks, encouraging 
sound floodplain management techniques, and providing a mechanism 
through which people can insure their homes against flooding. We 
appreciate the opportunity to support the U.S. Fish and Wildlife 
Service in updating and implementing the CBRS and hope that the 
information provided will be useful to the Subcommittee in its 
deliberations. Once again, I thank the Subcommittee for the opportunity 
to testify before you today, and will be glad to answer any questions 
you may have.
                                 ______
                                 
    Mr. Gilchrest. Mr. David Salvesen? Thank you, sir, for 
coming.

 STATEMENT OF DAVID A. SALVESEN, CENTER FOR URBAN AND REGIONAL 
 STUDIES, UNIVERSITY OF NORTH CAROLINA AT CHAPEL HILL, CHAPEL 
                      HILL, NORTH CAROLINA

    Mr. Salvesen. Thank you, Mr. Chairman and members of the 
Committee. I am delighted to be here to talk about CBRA. And 
for the record, when I came last night, it was absolutely 
pouring. It wasn't a bright sunny day, but I am delighted it 
has cleared up today.
    My name is David Salvesen. I work for the Center for Urban 
and Regional Studies at UNC-Chapel Hill. The Center, briefly, 
it is an organization that conducts research on a wide variety 
of topics related to housing, land use, transportation, and the 
environment.
    A few years ago, I spent quite a bit of time researching 
the Coastal Barrier Resources Act. I asked a few simple 
questions. One was what has been the impact of CBRA on 
development in CBRA units, and two, why have some units 
developed despite the withdrawal of Federal subsidies? What I 
would like to do is just go very quickly through what I did and 
how I did it and then jump to some findings and 
recommendations. Hopefully, I will get there before the timer 
beeps me.
    I conducted five case studies. I went to five CBRA sites, 
two in Alabama, one in Florida, one in South Carolina, and one 
in North Carolina, and I picked these not at random. I picked 
them because these were the sites that were under tremendous 
development pressure. They had either already undergone some 
development or there was a lot of pressure to develop in these 
units.
    I talked to people at each of the sites. I spent two, 
three, four, or 5 days. I talked to Realtors, developers, 
appraisers, elected officials, anybody who would talk to me and 
seemed knowledgeable about CBRA, and what I found was that, 
first of all, the vast majority of CBRA units remain 
undeveloped, although it is hard to tell sometimes because 
there has been no complete, comprehensive inventory of all the 
units. But based on my analysis, the vast majority of the sites 
remain undeveloped.
    Some CBRA units, however, have developed so much that they 
are virtually indistinguishable from the non-CBRA areas, places 
like North Bethany Beach, North Topsail Beach--I should say 
Bethany Beach in Delaware, North Topsail Beach in North 
Carolina, and Cape San Blas in Florida.
    Many of the CBRA units probably would not have developed 
anyway. They are low-lying. They are isolated. They consist 
primarily of wetlands. They are inaccessible. And as one person 
in South Carolina told me, at least regarding the CBRA units in 
South Carolina, most of the lands put in CBRA were the crummy 
lands anyway.
    There are many different factors that influence development 
in CBRA. That is one person in South Carolina's opinion.
    Mr. Gilchrest. Not crummy lands to the ducks, I guess, or 
the turtles.
    Mr. Salvesen. No, crummy lands for development. They are 
not the kind of places you would pick for development and that 
is why they were undeveloped in 1982.
    But there are many different factors that influence 
development of CBRA. The withdrawal of subsidies is one of 
those. The strength of the real estate market. Again, the 
topography or geology. Some of the units off the coast of 
Mississippi would probably never develop. They are just too 
low-lying and too isolated. The beaches are not very 
attractive. They are mostly a mud mixture.
    One of the key findings, however, is that a strong real 
estate market trumps CBRA. Where the market is strong enough, 
developers will find it cost effective to build their own 
infrastructure, to put in their own water and sewer system, to 
build their own roads, and even help their buyers find private 
flood insurance in the private market.
    Private flood insurance is expensive. I would agree with 
Mr. Lowe's comments. But when you can rent your property for 
$3,000 to $4,000 a week during prime season, you just fold that 
into the costs of the rent and you make it back quite easily in 
a year. And I would add that most of the properties that are 
built along the coast today, in my opinion, are built for the 
rental income they generate. These are not properties where 
people are going to live in year around.
    Most developers and Realtors, unfortunately and 
surprisingly, are unfamiliar with CBRA. When I talked to them 
about the Coastal Barrier Resources Act, many of them didn't 
have a clue what I was talking about. These are even people who 
develop in coastal areas. Many insurers, I talked to a 
gentleman from FEMA, many insurers unwittingly issued NFIP 
policies to people who live in CBRA areas. We found this out 
after Hurricane Fran hit North Carolina, that a lot of policies 
were issued in error and FEMA refunded their money.
    CBRA lands seem to develop last. In many places I went to, 
the non-CBRA areas are developed first because there are fewer 
restrictions there. You can get the infrastructure. Your people 
can get National flood insurance policies. But when everything 
else is gone, then the CBRA areas are going to go next. As one 
Realtor told me on the Fort Morgan Peninsula in Alabama, he 
said CBRA lands are the only game in town and that is where all 
the development is going to happen now.
    And finally, I think one indication of the strength of CBRA 
are the number of efforts to remove property from the CBRA 
boundaries. If CBRA wasn't providing a disincentive for people 
to develop in the CBRA units, then I don't think we would see 
so many efforts to have people's property withdrawn from the 
system.
    In conclusion, I think that by itself, CBRA will not 
prevent development from occurring. Where the market is strong 
and where State and local governments adopt policies to 
undermine the Act, then development will occur. In some cases, 
for example, local governments may build private water and 
sewer systems to facilitate development.
    But the converse is also true. Where State and local 
policies support the spirit and intent of CBRA, then 
development will not occur. I didn't find many examples of 
this, but Dauphin Island, Alabama, is one where the State drew 
its coastal setback line on the same boundary as the CBRA line 
and the local government, the Town of Dauphin Island, zoned the 
entire area for conservation and open space, and so that area 
has not developed.
    Very quickly, because I am out of time, I think a couple of 
quick recommendations. One is to improve outreach. Again, many 
people have never heard of CBRA. They don't know about it. They 
buy property. They later find out that they can't get flood 
insurance. They sue the Realtors or whatever. I think there 
needs to be greater outreach for buyers, for developers, for 
insurers, and for State and local coastal zone managers. I was 
shocked at the lack of awareness.
    And in order for any market system to work, you have to 
have, if I remember my Economics 101 correctly, you have to 
have perfect information and there isn't enough information out 
there, and perhaps that is something the Fish and Wildlife 
Service could do.
    I think the match should be made much more readily 
available. As a researcher, it was difficult to me. Whenever I 
wanted to do an inventory of my own systems, I had to go either 
to Washington, or Arlington, or the local Fish and Wildlife 
Service in North Carolina to have a look at their aerial photos 
and maps. They should be digitized. They should be made 
available to local governments. They should be on tax assessor 
files and in local plans.
    Third, I think, if possible, the Federal Government should 
try to reach partnerships with State and local agencies to 
identify the CBRA areas, to identify and prioritize those areas 
that should be protected either through acquisition programs or 
whatever.
    I think CBRA should be incorporated in State Coastal Zone 
Management plans. There should be a requirement for consistency 
among Federal agencies in their decisions that affect CBRA, so 
if you have one agency building a road or expanding a highway 
that is going to affect development that doesn't seem to be all 
that consistent with CBRA, perhaps Fish and Wildlife Service 
should have more than just an oversight role in that.
    And finally, I will give a plug for State and local 
governments who would like to acquire some of these CBRA lands. 
Maybe there is some way for the Federal Government to simply 
buy these areas. When I go to North Topsail Beach, every time I 
go there, I see that the lands at the very northernmost part of 
the island are not in CBRA, but most of the area leading up to 
that are. So whenever the road gets washed out or the water and 
sewer system gets damaged, they have got to repair that. It 
becomes an issue because they say--the local government wants 
to expand it so they can allow more development to occur and 
the Fish and Wildlife Service has held the line and said, no, I 
am sorry, we can't expand it but we can repair it. If you go 
back 20 years, you should have just bought out those few, 
relatively few acres up at the top of the island and that would 
have made things a lot simpler for everybody.
    But in any case, I am sorry to rush through this. I am out 
of time and I thank you for inviting me to give testimony 
today.
    Mr. Gilchrest. Thank you very much, Mr. Salvesen.
    [The prepared statement of Mr. Salvesen follows:]

  Statement of David Salvesen, Center for Urban and Regional Studies, 
              University of North Carolina at Chapel Hill

BACKGROUND
    Coastal barriers are long, narrow bars of sand found just offshore, 
wherever low coastal plains and other conditions of geology and weather 
favor their creation. Commonly referred to as barrier islands, coastal 
barriers also include bay barriers and barrier spits that attach 
directly to the mainland. From the Gulf of Maine to Padre Island, 
Texas, coastal barriers form an almost unbroken chain, like beads on a 
necklace, along the Atlantic and Gulf coasts. The chain includes over 
400 barriers and totals approximately 2,700 miles of shoreline. Lying 
parallel to the shore, coastal barriers function as buffers, protecting 
the mainland against the destructive forces of storm-driven waves, 
hence the name barrier. The barriers themselves survive the occasional 
onslaughts by rolling with nature's punches. Rather than stand fast 
against the irrepressible sea, the barriers migrate inland, at varying 
rates, in response to wind, waves, and rising sea levels that roll the 
sand off their outer edges back and into their interiors.
    The wind-swept, isolated beauty of coastal barriers has always 
attracted people. Millions of Americans have enjoyed weekend getaways 
and summer vacations on our barrier beaches. Over the last 20 years or 
so, many of these isolated outposts of sand have undergone a boom in 
second-home and resort development. Yet, the low elevation, narrowness, 
and shifting sands of coastal barriers make them extremely risky places 
for beachfront development. <SUP>1</SUP> It is not uncommon for houses 
on coastal barriers to be washed away, rebuilt, and then destroyed 
again by a subsequent storm. Coastal barriers do not stand still, which 
is contrary to the way we think of land as behaving (Hansen, 1993).
---------------------------------------------------------------------------
    \1\ It has long been known that building on sand in hazard-prone 
areas is risky business: ``And everyone that heareth these sayings of 
mine, and doeth them not, shall be likened unto a foolish man, which 
built his house upon the sand. And the rain descended, and the floods 
came, and the winds blew, and beat upon that house, and it fell, and 
great was the fall of it.'' Matthew 7:26-27.
---------------------------------------------------------------------------
    For decades, the federal government has encouraged private 
development on coastal barriers through financial assistance for the 
construction of highways and bridges, water supply and wastewater 
treatment facilities, and beach stabilization projects (Godschalk, 
1984:1; Brower, Godschalk and Beatley, 1986:258; Jones, 1991:1027). 
<SUP>2</SUP> Federal disaster assistance and flood insurance also have 
facilitated coastal development by transferring much of the risks and 
costs of development from the private sector to the public sector (U.S. 
DOI, 1982; Beatley, Brower and Schwab, 1994). <SUP>3</SUP> Federal 
subsidies have perpetuated a cycle of subsidized development, 
destruction and subsidized redevelopment. After a major coastal storm 
or hurricane sweeps across a coastal barrier, damaging or destroying 
development subsidized by government, federal disaster relief helps 
rebuild the damaged properties. For example, after hurricane Frederic 
destroyed the bridge to Dauphin Island, Alabama, in 1979, the Federal 
Highway Authority provided funds to reconstruct the bridge at a cost of 
$32 million, a subsidy of about $26,000 (in 1982 dollars) for each of 
the island's 1,220 permanent residents (Kuehn, 1984:595).
---------------------------------------------------------------------------
    \2\ A classic example is Cape Hatteras on North Carolina's Outer 
Banks. At the time the Cape Hatteras National Seashore was authorized 
in 1937, there were eight small fishing villages scattered along the 
three barrier islands that make up the federal seashore. These villages 
are outside the boundaries of the federal seashore. Development was 
concentrated primarily in protected areas behind natural dune systems. 
In 1962, construction of the Herbert Bonner Bridge provided direct 
access to the mainland and stimulated construction on the formerly 
isolated islands. Second home development occurred in primary sand 
dunes, rapidly eroding areas sites of former inlets and ecologically 
sensitive areas. By the 1970s, several wells in the Village of Avon 
became contaminated by inadequately treated wastewater from septic 
tanks. In the 1970s, the Cape Hatteras Water Association obtained a 
loan from the Farmers Home Administration to build a water line from 
Buxton to Avon. The new water line spurred additional development. 
Eventually, however, the limited capacity of the electric transmission 
line across Bonner Bridge curtailed development, at least until the 
Rural Electricfication Administration subsidized the construction of a 
newer, larger line across the bridge (U.S. Department of Interior, 
Final Environmental Impact Statement, Undeveloped Coastal Barriers, 
1983, pg. A-96).
    \3\ Burby, et al., (1999) stated that federal subsidies, (e.g., 
federal disaster relief and income tax write-offs), have encouraged 
people to build in hazard-prone locations.
---------------------------------------------------------------------------
    In 1977, President Carter called for an end to federally subsidized 
projects on barrier islands. That same year, the Barrier Islands Work 
Group, comprised of the U.S. Department of Interior, the Department of 
Commerce and the Council on Environmental Quality, began a series of 
studies that focused on identifying and assessing alternative 
approaches for protecting coastal barriers and reducing recurring 
federal costs associated with their development. In January 1980, the 
Work Group released a Draft Environmental Statement, which examined 
federal programs that, through grants, loans, permits or acquisition, 
contributed to the development or conservation of coastal barriers. The 
Environmental Statement noted that many federal programs worked at 
cross-purposes, and it called for a consistent federal policy on 
coastal barriers. <SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ U.S. Department of the Interior. ``Final Environmental 
Statement: Undeveloped Coastal Barriers.'' May 1983. In 1982, an 
amendment by Senator Chafee, CBRA's chief sponsor, repealed this 
provision (Section 341(d)(2)), of the Omnibus Budget Reconciliation Act 
and inserted it into CBRA (in S1018).
---------------------------------------------------------------------------
    In 1981, Congress took the first step toward reducing federal 
subsidies that facilitate development of coastal barriers when it 
enacted the Omnibus Budget Reconciliation Act (PL 97-35) or OBRA, which 
amended the National Flood Insurance Act of 1968 and prohibited the 
sale of federal flood insurance for new construction on undeveloped 
barrier islands after October 1, 1983. <SUP>5</SUP> In April 1981, 
Senator John Chafee (R-R.I.) introduced a bill (S.B. 1018) that 
expanded the scope of the prohibition of federal expenditures and 
financial assistance on designated coastal barriers, while 
Representative Thomas Evans (R-Del.) introduced a nearly identical bill 
(H.B. 3252) in the House (Kuehn, 1984:599). Chafee, an early advocate 
of nonregulatory approaches to conserving the coastal environment, 
called federal subsidies of coastal development a ``travesty,'' 
particularly when domestic assistance programs were being cut.
---------------------------------------------------------------------------
    \5\ Congressional Record, July 1, 1982, p. 15660.
---------------------------------------------------------------------------
        In the context of this country's fiscal austerity, it seems to 
        me subsidizing development by the federal government is really 
        a travesty. We are reducing school lunch programs. We are 
        reducing support for Medicaid and a host of other programs. 
        Certainly it makes no sense to spend federal dollars to enrich 
        a group of developers whose goals are hardly compatible with 
        the public's interest or the national interest. <SUP>6</SUP>
---------------------------------------------------------------------------
    \6\ Coastal Barrier Resources Act: Hearings Before the 
Environmental Pollution Subcomm. of the Senate Comm. on Environment and 
Public Works, 97th Cong., 1st and 2nd Sess. (1981-82), Statement by 
Senator Chaffee.
---------------------------------------------------------------------------
    The Chafee-Evans bill, the Coastal Barrier Resources Act or CBRA, 
brought together strange bedfellows--fiscal conservatives, 
environmentalists and those opposing additional federal regulations, 
and garnered support among Democrats and Republicans alike. 
<SUP>7</SUP> The bill was signed by President Reagan on October 18, 
1982. <SUP>8</SUP> The history of CBRA is summarized briefly in Figure 
1.3.
---------------------------------------------------------------------------
    \7\ Twenty-eight Democrats and 30 Republicans cosponsored the 
Senate CBRA bill, S.1018, while 68 Democrats and 61 Republicans 
cosponsored the House CBRA bill, H.R. 3252 (Jones, 1991:1058).
    \8\ In May 1982, the U.S. Department of Interior, in cooperation 
with the Federal Emergency Management Agency, released a draft 
environmental statement for use in implementing OBRA's directive 
requiring the Secretary of the Interior to designate undeveloped 
coastal barriers for the purpose of prohibiting new federal flood 
insurance. CBRA became law prior to the completion of the final 
environmental statement. The designation of undeveloped coastal 
barriers was established legislatively by the Act.
---------------------------------------------------------------------------
Figure 1.1: Chronology of the Coastal Barrier Resources Act
    1976   President Carter calls for an end to federally subsidized 
projects on barrier islands. <SUP>12</SUP>
---------------------------------------------------------------------------
    \12\ Congressional Record. March 2, 1982, pg. 2885
---------------------------------------------------------------------------
    1977   The U.S. Department of Interior (DOI) begins a study to 
assess options for modifying federal programs affecting coastal 
barriers.
    1980   Results of the DOI study released in a draft Environmental 
Impact Statement.
    1981   Omnibus Budget Reconciliation Act (PL 97-35) amends the 
National Flood Insurance Act of 1968, withdrawing federal flood 
insurance from designated coastal barriers.
    1981   Sen. Chafee (R-R.I.) and Rep. Evans (R-Del.) introduce 
legislation to create CBRA
    1982   President Reagan signs Coastal Barrier Resources Act on 
October 18, 1982.
    1983   Final Environmental Statement issued in May.
    1983   North Carolina developers, led by Marlow Bostic, file 
lawsuit against the federal government, alleging that their property 
was erroneously included in the system.
    1984   Federal judge rules against Bostic and upholds CBRA. The 
decision was affirmed on appeal. <SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ M.F. Bostic et al. vs. United States of America, U.S. District 
Court, Eastern District of N.C., No 83-139-CIV-4)
---------------------------------------------------------------------------
    1990   Coastal Barrier Improvement Act amends CBRA and expands 
CBRS.
    1996   Rep. Tillie Fowler (R-Fla.) attaches rider to Omnibus Parks 
bill to remove areas from CBRS. President Clinton signs the bill.
    1997   The Coast Alliance, a nonprofit environmental group in 
Washington, D.C., files lawsuit asserting that DOI made changes to the 
wrong maps.
    1998   United States District Court for the District of Columbia 
rules in favor of the Coast Alliance and strikes down the Fowler 
amendment.
    1998   Tillie Fowler attaches rider to Omnibus Appropriations bill, 
which passes and is signed by the President. Seventy-five acres removed 
from CBRS units in Florida.
    2000   CBRA reauthorized (Coastal Barrier Resources Reauthorization 
Act of 1999).

                                 * * *

    CBRA's purpose is to minimize loss of life, wasteful expenditures 
of federal revenues, and damage to fish and wildlife and other natural 
resources. Prohibitions on federal expenditures in designated areas 
went into effect immediately, while those for federal flood insurance 
did not become effective until one year later (October 1, 1983). CBRA 
prohibits federal financial assistance <SUP>9</SUP> for roads, bridges, 
flood insurance, utilities, erosion control, and post-storm disaster 
relief for new development on designated ``undeveloped'' areas of 
coastal barriers. <SUP>10</SUP> Areas designated as undeveloped were 
those with less than one walled and roofed building per five acres of 
fastland, <SUP>11</SUP> areas lacking urban infrastructure, vehicle 
access, water supply, wastewater disposal, and electric service to each 
lot and areas that were not part of a development of 100 or more lots. 
In addition, designated units had to have at least one-quarter mile of 
oceanfront.
---------------------------------------------------------------------------
    \9\ Financial assistance is defined as ``any form of loan, grant, 
guaranty, insurance payment, rebate, subsidy, or any other form of 
direct or indirect federal assistance,'' CBRA Sec. 3(3), 16 U.S.C. 
Sec. 3502(3) (1982).
    \10\ Coastal barrier is defined as ``a depositional geologic 
feature that (i) consists of unconsolidated sedimentary materials, (ii) 
is subject to wave, tidal, and wind energies, and (iii) protects 
landward aquatic habitats from direct wave attack.'' The definition 
encompasses all associated aquatic habitats, including wetlands, 
marshes, estuaries, inlets, and near shore waters, CBRA Sec. 3(1), 16 
U.S.C. Sec. 3502(3) (1982).
    \11\ Fastland--above mean high tide. Generally refers to land that 
is not wetlands or open water.
---------------------------------------------------------------------------
    CBRA carves out certain exceptions under which the expenditure of 
federal money is permitted. Section 6 of the Act grants exceptions for 
energy projects, military activities, Coast Guard facilities, 
maintenance of channel improvements, and the ``maintenance, 
replacement, reconstruction, or repair, but not the expansion, of 
publicly-owned or publicly-operated roads, structures, or facilities 
that are essential links in a larger network or system.'' <SUP>14</SUP> 
Structures or facilities include public utilities. A related exemption 
permits federal expenditures or financial assistance for the 
maintenance, replacement, reconstruction, or repair, but not the 
expansion, of publicly-owned or publicly-operated roads, structures, or 
facilities that are not essential links, but only if such expenditures 
or assistance are ``consistent with the purpose'' of CBRA. 
<SUP>15</SUP> Thus, a developer can build a road within the system, 
dedicate it to public use, and make the road eligible for federal 
assistance for maintenance or replacement after a storm (Kuehn, 
1984:623).
---------------------------------------------------------------------------
    \14\ CBRA (16 U.S.C. 3505 Sec. 6(a)(3)) (1982).
    \15\ CBRA (16 U.S.C. 3505 Sec. (6)(a)(6)(F)) (1982). The Act also 
provides exemptions for nonstructural shoreline stabilization measures, 
scientific research, and for emergency actions essential to save lives, 
protect property and public safety.
---------------------------------------------------------------------------
    The Federal Highway Administration has determined that all roads 
and highways in the federal-aid highway system are, by definition, 
``essential links'' because they are links to a larger network of 
roads. As a result, all of the roads and highways in the federal-aid 
highway system satisfy the threshold criteria for the 6(a)(3) exception 
(Babb, 1996). A road that qualifies for the 6(a)(3) exception need not 
show that its construction is consistent with CBRA (Department of 
Interior, 1983:45667).
    Congress initially designated 186 CBRA units, comprising some 
453,000 acres along 666 miles of shoreline of the Atlantic and Gulf 
coasts. The units range from small, isolated shoals of sand scarcely 
above sea level to chains of islands stretching hundreds of miles, some 
of which individually exceed a mile in width (GAO, 1992:11). These 
designated units comprise the Coastal Barrier Resources System (CBRS). 
In 1990, Congress expanded the system to 854 units by adding new units 
along coastal states from Maine to Texas and by including coastal 
barriers along the Great Lakes, Puerto Rico, the Florida Keys and the 
Virgin Islands. Two hundred and seventy of the new units added in 1990 
were already protected from development because they are part of a 
National Wildlife Refuge, National Seashore, state park or are owned by 
nonprofit land conservation groups such as The Nature Conservancy. 
These already-protected units, which encompass some 1,786,242 acres, 
are known as ``Otherwise Protected Areas'' or OPAs. <SUP>16</SUP> Table 
1 provides a brief summary of certain characteristics (size and 
composition) of CBRS units, excluding the Otherwise Protected Areas. 
The vast majority of land (87.4%) in the non-OPA CBRS units is 
comprised of wetlands.
---------------------------------------------------------------------------
    \16\ Personal communication with Paul Souza, December 28, 2001. 
U.S. Fish and Wildlife Service, Arlington, Va.
[GRAPHIC] [TIFF OMITTED] T0579.003


    Despite some setbacks, CBRA still enjoys broad bipartisan support 
in Congress, as evidenced by its reauthorization in 2000. The 
reauthorization codified the criteria used to determine if a coastal 
barrier is developed (one structure per five acres of fastland or a 
full compliment of infrastructure). It also renamed CBRS after its 
chief sponsor and advocate, Senator Chafee, who died in October 1999. 
Now, CBRS is officially called the John H. Chafee Coastal Barrier 
Resources System.
    CBRA departs from more traditional approaches to conserving natural 
resources, such as regulating or acquiring land. If successful, the 
same technique--withdrawing growth-inducing subsidies--could also be 
used to protect wetlands, floodplains, endangered species habitat, and 
other natural resources. <SUP>17</SUP> In adopting CBRA, however, 
federal policymakers may have overlooked the key role of state and 
local governments, as well as the role of policy coalitions, in shaping 
development on coastal barriers. <SUP>18</SUP> By itself, the Act will 
not prevent development. In fact, it appears that development in CBRS 
units will occur if (1) development pressure is strong enough to 
overcome the disincentives posed by CBRA, and (2) state and local 
governments facilitate development in CBRS units. For example, a local 
government may substitute its own subsidies for those withdrawn by the 
federal government. Nothing in the Act prevents this from occurring. 
However, state and local governments also may enact policies to 
discourage or prevent development in CBRS units.
---------------------------------------------------------------------------
    \17\ In 1983, former Interior Secretary James Watt submitted a 
draft bill to Congress that applied the expenditure limitation approach 
to wetlands. Entitled the ``Protect Our Wetlands and Duck Resources Act 
of 1983,'' the legislation would have established a resource system 
comprising undeveloped wetlands of five acres or more that provide 
significant wildlife, fisheries, or water purification benefits, 
(Kuehn, 1984:633). The proposed legislation, introduced in the Senate 
by Chaffee, was never enacted.
    \18\ In 1982, there was considerable controversy and debate over 
whether CBRA's subsidy limitation approach alone would achieve the 
Act's resource protection goals (Jones, 1991:1017). Section 10 of CBRA 
directed the Secretary of Interior to prepare, within three years of 
the Act's enactment, a report to Congress that contains recommendations 
on conserving the natural resources of the CBRS. In response, the 
Department of Interior released draft reports in 1985 and 1987, with 
final recommendations to Congress in 1988. The 1985 report recommended 
several alternative means of conserving natural resources in CBRS 
units, such as changing the tax code (for example to eliminate casualty 
loss deductions), acquiring land, or requiring consistency with CBRA in 
federal permitting activities (USDOI, 1985). Most of these 
recommendations never made it into the final report.
---------------------------------------------------------------------------
    CBRA is a simple, straightforward federal law that seeks to 
discourage development in designated coastal areas by removing 
development subsidies, thus making development in CBRS units more 
expensive. The basic premise of the Act is that conservation can be 
achieved without increasing federal regulatory involvement simply by 
withdrawing federal financial support for development in high-risk 
coastal areas. Several studies have shown that the provision of 
infrastructure spurs development (Tabors, Shapiro and Rogers, 1976; 
Urban Systems Research and Engineering, Inc., 1976). Burby, et al, 
(1988:6) found that locating capital facilities such as streets and 
water and sewer lines in and near flood hazard areas tends to encourage 
urban encroachment into the floodplain. A study of barrier island 
development near four National Seashores (Cape Hatteras, North 
Carolina; Cumberland Island, Georgia; Padre Island, Texas; and the Gulf 
Islands in Alabama, Florida and Mississippi) found that uniformly, 
little development occurred on the barrier islands until road, bridge, 
or causeway access was provided from the mainland (Sheaffer & 
Roland,Inc., 1981). The corollary was true as well: where no such 
access existed, little development occurred. <SUP>19</SUP>
---------------------------------------------------------------------------
    \19\ Sheaffer and Roland (1981) found that the private sector or 
state and local governments bore the initial costs of providing roads, 
bridges, or causeways to coastal barriers, while the federal government 
typically subsidized later expansion, improvement, repair, 
rehabilitation or replacement (Sheaffer and Roland, 1981:24).
[GRAPHIC] [TIFF OMITTED] T0579.004


Source of estimates on number of structures in CBRS unit:
    Ft. Morgan Peninsula: direct counts by the author using 2001 aerial 
photographs
    North Bethany Beach: Daniel, Heather. 2000. The Coastal Barrier 
Resources Act: Impact on Development in the Coastal Zone, Masters 
Thesis. University of Delaware.
    Cape San Blas: Rough estimate provided by David Richardson, planner 
for Gulf County, Pers. communication, 2/15/02. U.S. GAO (1992) 
estimated that there were 332 residences in 1992.
    Moreno Point: U.S. General Accounting Office, 1992. GAO estimated 
that there were 39 structures in 1992. Considerable development has 
taken place since then, and I suspect that Moreno Point would no longer 
qualify for inclusion in CBRS. More recent estimates of development 
were unavailable.
    Hatteras Island (as of 2002: there are about 100 lots in the CBRS 
unit, 15 have houses on them).
    North Topsail Beach. Direct counts by the author using 1996 (post-
Fran) aerial photos plus personal communication with John Starzinski, 
building inspector for North Topsail Beach, 2/25/02. The number for 
North Topsail Beach is somewhat misleading. First, many of the 
structures are high-rise condominiums with up to 230 units (there are 
an estimated 820 dwelling units in the CBRS unit of North Topsail 
Beach). Second, over 260 homes at North Topsail Beach were destroyed by 
Hurricane Fran, most of which were in the CBRS unit. About half that 
many (130) have been rebuilt since 1998.
    Daufuskie Island: Teri Norris, Planner, Beaufort County, S.C. Pers. 
communication, February 20, 2002.
    Litchfield Beach: direct count by the author during on-site visit 
and follow-up call in 2000.
    Without easy access, a reliable source of potable water, and some 
form of wastewater treatment, extensive development on coastal barriers 
is unlikely. <SUP>20</SUP>
---------------------------------------------------------------------------
    \20\ A survey of coastal developers by Godschalk (1984) indicated 
that the lack of water and sewer would constrain development on barrier 
islands.
---------------------------------------------------------------------------
    The vast majority of CBRS units remain undeveloped. <SUP>21</SUP> 
Yet, the lack of development may be due to factors other than the 
withdrawal of federal subsidies. For example, most CBRS units are 
remote and relatively inaccessible by automobile. Others consist 
primarily of wetlands and would be difficult to develop or are in 
public ownership and are off-limits to development. In several CBRS 
units, however, substantial development has occurred. For example, a 
1990 study by the National Wildlife Federation found that, of the 157 
CBRS units examined, nearly 600 structures had been built since the Act 
was adopted. Only 10 units showed an increase of ten or more 
structures. Five states (Alabama, Delaware, Florida, North Carolina and 
South Carolina) accounted for 91 percent of the new construction (Jones 
and Stolzenberg, 1990).
---------------------------------------------------------------------------
    \21\ Souza, Paul. Personal communication. December 28, 2001. U.S. 
Fish and Wildlife Service, Arlington, Va.
---------------------------------------------------------------------------
    In 1992, the U.S. General Accounting Office (GAO) reviewed 34 
geographically dispersed CBRS units and determined that eight had 
undergone significant new development since CBRA was enacted. In all, 
GAO determined that about 1,200 new structures were built in CBRS units 
since 1982, with most of the construction occurring on barrier islands 
in Alabama, Delaware, Florida, North Carolina and South Carolina (GAO, 
1992). Several CBRS units have experienced so much development that 
they would no longer meet the criteria for inclusion in the system, 
i.e., greater than one structure per 5 acres of fastland. Table 2 lists 
the CBRS units that have undergone the most development.
    The amount of development in the CBRS units shown ranges from 15 to 
over 500 structures. Four of the CBRS units have undergone so much 
development that they no longer meet the minimum criteria for being 
included in the system: less than one structure per five acres of 
fastland. North Bethany Beach, which is surrounded by development, has 
over 7 structures per five acres of fastland. And the CBRS unit at 
North Topsail Beach includes an estimated 820 dwelling units in some 
348 structures.

RESEARCH METHODS
    From 1998-2002, I conducted an analysis of the Coastal Barrier 
Resources System as part of my dissertation at the University of North 
Carolina at Chapel Hill. I conducted case studies of five Coastal 
Barrier Resources System (CBRS) sites in four states: Alabama, Florida, 
North Carolina and South Carolina. In addition, I conducted a survey of 
state coastal managers (in states with CBRS units) and key informants 
within each state selected for analysis. My research sought to explain 
why development has occurred in some CBRS units, despite the withdrawal 
of federal subsidies to these units. I sought to answer the following 
questions:
    1.  To what extent does CBRA limit development in CBRS units?
    2.  How do the policies and actions (e.g., providing funds for 
infrastructure in a CBRS unit) of state and local governments affect 
the development of CBRS units?
    3.  To what extent do other key stakeholders, (e.g., developers and 
conservation groups) account for the difference in the level of 
development among certain CBRS units?
    Previous reports on development in CBRS units (e.g., Godschalk, 
1984; GAO, 1992; Jones and Stoltzenburg, 1990; USDOI, 1983) indicated 
that CBRS units in five states--Alabama, Florida, North Carolina, South 
Carolina and Delaware--had undergone the most development or were under 
strong development pressure. In its Final Environmental Statement 
(1983), the U.S. Department of Interior predicted that CBRA would have 
the greatest impact in North Carolina, South Carolina, Florida and 
Texas ``where large acreages of undeveloped fast land are available for 
development and intense development pressure now threatens large 
sections of the coast'' (USDOI, 1983:IV-12). The Department of Interior 
also predicted that CBRA would also have a significant effect in 
Alabama and Mississippi. <SUP>22</SUP>
---------------------------------------------------------------------------
    \22\ ``Although the undeveloped coastal barrier acreage is small, 
significant effects are also likely in Mississippi and Alabama, where 
there is considerable development pressure on several areas,'' U.S. 
Department of the Interior. 1983. Final Environmental Statement, 
Undeveloped Coastal Barriers, pg. IV-12.
---------------------------------------------------------------------------
    In deciding which CBRS units to select for case study, I focused on 
the states containing CBRS units that had experienced development or 
were under strong development pressure, i.e., Alabama, Delaware, 
Florida, South Carolina and North Carolina. In addition, I also sought 
units that would provide variation by state (i.e., CBRS units from 
different states) and by the amount of development that had occurred.
    Based on published reports, discussions with key informants 
(primarily federal and state resources agencies and nonprofit coastal 
conservation groups), and analysis of aerial photographs, I identified 
those CBRS units that had experienced the most development. These units 
are shown in 3. As shown in the table, only 4 CBRS units have 
experienced substantial development, that is, have more than one 
structure per five acres of fastland, although I was not able to verify 
the amount of development in all units within the Coastal Barrier 
Resources System. The Ft. Morgan peninsula is included in the table 
because it has undergone considerable development in the last five 
years and because it is under intense development pressure. Also, the 
0.20 figure for the number of structures per five acres of fastland in 
the Ft. Morgan CBRS unit is somewhat misleading. First, a large chunk 
of the CBRS unit is within the Bon Secour Wildlife Refuge and thus is 
off-limits to development. Second, much of the recent development is in 
the form of large, multi-story condominiums, thus calculating the 
number of dwelling units per five acres of fastland may provide a more 
accurate indication of the amount of development that has occurred.
    Once I narrowed my focus to these five states, the selection of 
units to study was fairly easy, since there were few developed CBRS 
units to choose from, except for those units in Florida. For example, 
there is only one developed CBRS unit in Delaware (North Bethany 
Beach), one in North Carolina (North Topsail Beach), one in Alabama 
(Ft. Morgan peninsula) and one in South Carolina (Litchfield Beach). 
The other two CBRS units selected--Dauphin Island, Alabama, and 
Hutchinson Island, Florida--were selected because they were identified 
by key informants as CBRS units subject to strong development pressure. 
In addition, while other CBRS units in Florida--Cape San Blas and 
Moreno Point--were considered, due to the amount of development that 
has occurred in these units, I selected the Hutchinson Island unit 
because I wanted to build on the pilot study by Godschalk (1984), which 
included a case study of this unit (as well as North Topsail Beach).
[GRAPHIC] [TIFF OMITTED] T0579.005


    Budget constraints prevented me from including CBRS units from 
Delaware and from including additional CBRS units from within the four 
states selected. Table 3 summarizes the characteristics of the most-
developed CBRS units identified while Table 4 summarizes the 
characteristics of the five specific CBRS units selected for analysis.
    One of the findings of my research is that little is known about 
the exact amount and type of development that has occurred in CBRS 
units. The U.S. Fish and Wildlife Service does not keep an accurate 
account of development activity (e.g., number of dwelling units or 
structures) in CBRS units. For example, in 1992, the U.S. General 
Accounting Office estimated that there are 332 residences at Cape San 
Blas, a CBRS unit in Florida (U.S. GAO, 1992:27). However, I could not 
obtain a more recent estimate from the Service--the planner for Gulf 
County, Florida (where Cape San Blas is located) estimated that as of 
February 2002, there were upwards of 500 structures in the unit.
    The units selected for case study meet the range of characteristics 
desired for my analysis. That is, variation in size, location 
(different states), development pressure and in the amount of 
development that has occurred. In addition, each has sufficient vacant 
land for development. As shown in Table 4, the five CBRS units selected 
range in size from 103 acres at Litchfield Beach to over 15,000 acres 
at Hutchinson Island, and in the level of development from low (none) 
at Dauphin Island to high (over 800 dwelling units) at North Topsail 
Beach. Three of the CBRS units selected are on barrier islands, two on 
peninsulas. Wetlands make up at least 49 percent of each of the CBRS 
units selected, with Hutchinson Island topping the list with 93 percent 
of the unit comprised of wetlands. And except for Hutchinson Island, 
each of the units has been struck by a major hurricane since 1982, when 
CBRA was enacted. All of the CBRS units are readily accessible by car 
and are within a few hours drive from a major metropolitan area.
[GRAPHIC] [TIFF OMITTED] T0579.006


    At each site, I conducted at least 15 in-depth interviews with key 
stakeholders--planners, developers, Realtors, lenders, insurers, 
regulators, elected officials, and representatives of conservation 
groups--to examine the different factors that influence development in 
the selected CBRS units. I used the snowball technique <SUP>23</SUP> to 
identify the key stakeholders at each site, starting with an interview 
with the town or county planner and working from there. The interviews 
were open-ended, although many of the same questions were asked of all 
interviewees. I asked each interviewee questions to probe their 
knowledge of CBRA, how the Act affects development in the CBRS unit, 
the main factors and groups (coalitions) influencing development, and 
the outcome of that influence.
---------------------------------------------------------------------------
    \23\ Under the snowball sampling technique, researchers solicit 
help from respondents or interviewees in identifying other key people 
to interview.
---------------------------------------------------------------------------
FINDINGS

General
    CBRA is a novel federal approach to protecting coastal barriers. 
Federal attempts to protect coastal resources have generally been 
limited to fairly traditional approaches: property acquisition, 
encouragement of state and local land use planning through financial 
incentives, or direct ``command and control'' regulation. <SUP>24</SUP> 
In contrast, CBRA does not rely on regulations, state incentives, or on 
acquisition, which would be expensive, given the price of coastal 
properties. Instead, the Act simply removes federal incentives that 
encourage development of coastal barriers. The philosophy behind the 
Act is that the risk associated with new development in areas that have 
been identified as high-risk, damage-prone areas in which to build, 
should not be borne by the American taxpayer. The basic premise of the 
Act is that conservation can be achieved without increasing federal 
regulatory involvement simply by withdrawing federal financial support 
for development in high-risk areas.
---------------------------------------------------------------------------
    \24\ U.S. Department of the Interior, Coastal Barrier Studies 
Group. 1988. Report to Congress: Coastal Barrier Resources System with 
Recommendations as Required by Section 10 of the Public Law 97-348, The 
Coastal Barrier Resources Act of 1982, Vol.1, 166.
---------------------------------------------------------------------------
        For decades, the federal government worked against itself, 
        spending millions to acquire and protect some undeveloped 
        coastal barriers and billions to subsidize development on other 
        barriers. The Coastal Barrier Resources Act was intended to 
        stop all that, to establish the principle that those who wish 
        to develop undeveloped costal barriers shall do so at their own 
        risk and expense and not at the risk and expense of the federal 
        taxpayer. <SUP>25</SUP>
---------------------------------------------------------------------------
    \25\ Coastal Barrier Resources System: Hearing before the Subcomms. 
On Fisheries and Wildlife Conservation and the Environment and on 
Oceanography of the House Comm. On Merchant Marine and Fisheries, 101st 
Cong., 1st Sess. 2 (1989), statement of Rep. Gerry Studds.
---------------------------------------------------------------------------
    Congress may have been naive in assuming that the withdrawal of 
federal subsidies, by itself, would prevent development of designated 
coastal barriers. As Table 2 shows, substantial development has 
occurred in several CBRS units. To date, however, there has been little 
research examining why these CBRS units have developed.
    The case studies and surveys of state coastal managers suggest that 
there are a number of different factors that influence land use in 
Coastal Barrier Resources System units, including market forces, state 
and local policies and actions, geology, accessibility and advocacy 
coalitions, although it is difficult to tease apart the different 
factors. At Dauphin Island, Alabama, no development has occurred in the 
CBRS unit in large part due to state policy (the setback line), CBRA 
and the actions of a conservation group. In particular, the 
conservation group was able to thwart the developer's plans to develop 
200 lots on the western end of the island. However, geology was also a 
factor. The west end of the island is narrow, low-lying, and extremely 
vulnerable to coastal storms, as Hurricane Georges aptly illustrated. 
In comparison, Alabama's Ft. Morgan peninsula, which is heavily 
developed, is wider, higher in elevation, and its beaches are far more 
attractive. Also, although both places attract crowds in summer, the 
Ft. Morgan peninsula traditionally has been a bigger draw for tourists 
while Dauphin Island is a relatively quiet, year-round beach community.
    State coastal managers varied in their knowledge of the Coastal 
Barrier Resources Act. In states where little or no development had 
occurred in CBRS units, coastal managers tended to have very limited 
knowledge of the Act, which is not surprising given that CBRA is not a 
high-profile federal program. It was designed to be self-implementing: 
there are no regulations to enforce, no permits to issue, and, in most 
cases, few controversies to address. Only about half of the state 
coastal managers interviewed were knowledgeable about the Act, which 
makes it difficult to draw conclusions (based on the survey results) 
about the impact of CBRA, among other factors, on land use in CBRS 
units. The findings from the survey of state coastal managers were 
consistent with the case studies in a number of areas. In particular, 
the case studies and surveys both showed that developer interests were 
dominant at North Topsail Beach, Litchfield Beach and the Ft. Morgan 
peninsula, while conservation groups were dominant at Dauphin Island. 
In addition, the case studies and surveys indicated that CBRA is only 
one of several factors that influence land use in designated coastal 
barriers.
    Key informants also were asked about their knowledge of CBRA and 
about the relative influence of conservation and development interests 
in their state. As with state coastal managers, the key informants 
varied considerably in their knowledge of CBRA. Most said they were 
somewhat familiar with the Act, a handful claimed they were very 
familiar, and a few admitted that they never heard of the Act.
    Finally, state and local policies and actions seemed to influence 
development in the CBRS units examined, as illustrated by Alabama's 
Coastal Construction Control Line, which overlays the CBRS boundary and 
has helped prevent development in the CBRS unit of Dauphin Island. 
Similarly, the policies and actions of local elected officials have 
facilitated development at North Topsail Beach and the Ft. Morgan 
peninsula, and certainly paved the way for development to occur on 
Hutchinson Island.

Impact of CBRA
    The impact of the Coastal Barrier Resources Act varies from place 
to place. In some places, such as North Topsail Beach, the Ft. Morgan 
peninsula and Litchfield Beach, the CBRS units have undergone so much 
development that they are virtually indistinguishable from adjacent 
areas that are not part of CBRS. In other places, such as Dauphin 
Island and Hutchinson Island, the difference between CBRS and non-CBRS 
areas is very stark. In general, CBRA has made development more 
difficult and expensive. The withdrawal of federal subsidies for water, 
sewer and insurance in particular have posed obstacles to development, 
although, as the case studies of North Topsail Beach, Litchfield Beach 
and the Ft. Morgan peninsula demonstrated, these obstacles are not 
insurmountable. Strong land markets, a full complement of 
infrastructure, the availability of private flood insurance and a 
cooperative, if not strongly pro-development, town council or county 
commission enabled development to occur. These three units are some of 
the most extensively developed of the entire CBRS system. Even at 
Dauphin Island, where a proposal to develop in the CBRS unit was 
defeated, Mobile County had offered to provide the infrastructure for a 
proposed project that received approval (a variance) from the state. In 
at least one place--Hutchinson Island--the added difficulty of 
developing land in CBRS is reflected in land prices: according to 
Realtors and property appraisers interviewed, vacant land located in 
the CBRS unit is worth less than land outside of CBRS, all else being 
equal.
    In some of the CBRS units studied, the Act may have kept land (in 
CBRS) from being developed, at least until developable land outside the 
unit became scarce. At the Ft. Morgan peninsula, development in the 
CBRS unit really began only after the non-CBRS areas were already 
developed. At Hutchinson Island, CBRA appears to have kept some vacant 
land off the market long enough for state and local governments to 
acquire it. In addition, the Act appears to have shaped the type of 
development that occurs as well--an outcome that was predicted by 
Godschalk in his 1984 pilot study. For example, at North Topsail Beach, 
most of the large, multi-unit condominium projects are in the CBRS 
unit, although at Ft. Morgan, the opposite has occurred, with high-rise 
condominium buildings placed just outside the CBRS boundary.
    State coastal managers surveyed stated that CBRA had little or no 
effect on development in the CBRS units. Eleven of the 15 coastal 
managers surveyed stated that CBRA has had no impact on land use in 
CBRS units, two said it had a little impact, and two said they don't 
know. Eleven respondents said that state policies and local land 
markets are the key determinants of land use in CBRS units, not CBRA. 
For example, the coastal manager in Rhode Island stated that CBRA has 
had very little impact, primarily because the state's coastal 
regulations are so strict. In Connecticut, the state coastal manager 
noted that the barrier beaches are short and narrow, usually less than 
100 feet wide, and this poses a severe constraint on development in 
CBRS units. The same holds for Massachusetts. Several states (New York, 
Texas, Virginia, Florida, Maryland and New Jersey) stated that most of 
the CBRS units are owned by the public and thus precluded from 
development. Finally, several states (Connecticut, Florida, Maine, 
Massachusetts and Rhode Island) restrict the use of state funds for 
infrastructure on undeveloped coastal barriers. The survey of state 
coastal managers indicated that CBRA was one of several factors that 
determine whether or not development occurs, including land prices, the 
demand for development, ownership (public or private), and the 
availability of flood insurance.
    Geology is also a factor, as is vehicle access. As mentioned 
previously, it is hard to discount the role of geology in discouraging 
development at some CBRS units. For example, most of the beaches in 
Louisiana are small, narrow, muddy and inaccessible. According to the 
deputy commissioner of South Carolina's coastal management program, ``a 
lot of CBRS units wouldn't have developed anyway: They are low-lying, 
isolated and inaccessible.'' In other states, such as Maryland and New 
Jersey, most of the coast was developed long before CBRA was enacted, 
and most of the remaining undeveloped coastal areas are in public 
ownership.
    Clearly, CBRA matters to some landowners and developers, as 
reflected by the numerous efforts to have their property removed 
legislatively from the system, e.g., in Florida and in North Carolina. 
In South Carolina, a developer decided to steer clear of the CBRS unit 
after he saw what The Litchfield Company had to go through to develop 
The Peninsula, e.g., building a private water and sewer system at a 
cost of $2 million.
    Overall, I observed a gradual incursion of development in at least 
three CBRS units: Ft. Morgan peninsula, North Topsail Beach and 
Litchfield Beach. However, this was not the case at Hutchinson Island 
nor at Dauphin Island. Hutchinson Island may be a special case, due to 
the extensive amount of wetlands in the CBRS unit and the presence of a 
nuclear power plant on the island. At Dauphin Island, CBRA, state 
policies (setback provision) and the actions of the local group, 
Forever Dauphin Island, all have worked to prevent development from 
occurring in the CBRS unit.

Importance of State and Local Policies
    At the state level, eight of fifteen coastal managers surveyed 
stated that state policies have a big impact on land use; three 
responded that state policies have a little impact; and four said they 
have no impact. State coastal managers were not asked about the impact 
of local policies. All state coastal managers surveyed stated that 
their state's coastal policies were pro-conservation. State actions, 
however, often supported development in CBRS units (e.g, at North 
Topsail Beach and the Ft. Morgan peninsula). Thus, state agencies often 
work against each other, with one agency promoting conservation of the 
coast and another facilitating development.
    Local policies and actions typically supported development of the 
coast, except at Dauphin Island. But local agencies can work against 
each other, as can a state and a local agency. Also, there is a 
difference between policy adoption and policy implementation. For 
example, North Carolina coastal policies call for a minimum setback to 
protect structures along the coast from damage caused by coastal 
erosion. Yet, the state has granted numerous variances, especially at 
North Topsail Beach, to the setback requirement. At Hutchinson Island, 
St Lucie County took steps to facilitate development by creating a 
special assessment district for a water and sewer plant, which extended 
water and sewer lines through the length of the CBRS unit. Yet, the 
county had previously cut allowable densities in half, and state 
policies encourage conservation of the coast.
    Probably the most important finding about state and local policies 
and actions is that state and local governments are not homogenous, but 
are comprised of different agencies and personalities, with different 
policies, agendas, resources and beliefs. In some cases, the agencies 
work together toward a common goal, in other cases they work against 
each other. Also, a single agency may have competing objectives, 
especially in the case of state coastal management agencies, whose 
mission, typically, is to ``preserve and develop'' the coastal 
resources of the state. State and local policies and actions were not 
uniform, but varied within and across levels of government. That is, 
some were strongly pro-conservation at the state level but strongly 
pro-development at the local level, e.g., North Topsail Beach and 
Hutchinson Island.
    Overall, I found that state and local policies matter, and that 
where government actions, more than policies, facilitate development, 
development was likely to occur, as was the case at North Topsail Beach 
and Ft. Morgan. The corollary was also true, as was the case at Dauphin 
Island, where implementation of state (setback provision) and local 
(zoning) policies, helped prevent development from occurring in the 
CBRS unit. The results at Hutchinson Island were mixed, however, with 
the state and local governments often trying to achieve different 
objectives. Yet, virtually no development has occurred in the CBRS unit 
at Hutchinson Island. Finally, in South Carolina, neither the state nor 
local government strongly opposed or facilitated development at 
Litchfield Beach, although the local utility refused to extend its 
water and sewer lines into the CBRS unit. State policies in South 
Carolina strongly favor conservation, but a proposed project on the 
coast will likely receive the necessary permits as long as it complies 
with the state's setback requirements.

RECOMMENDATIONS
    Given CBRA's shortcomings, should the Act be scrapped and relegated 
to a historical footnote or strengthened to improve its effectiveness? 
First, as stated previously, the vast majority of CBRS units remain 
undeveloped: only a handful or so have experienced development. Second, 
CBRA has achieved at least one of its objectives: reducing wasteful 
expenditures of taxpayer dollars. In several instances (Litchfield 
Beach, for example), the Act has forced developers to bear the risk of 
investing in CBRS units. And after Hurricane Fran damaged much of North 
Topsail Beach, CBRA restricted (although it did not completely prevent) 
the use of federal funds for disaster recovery in the CBRS unit. In 
addition, the Act has delayed the development of some CBRS units, 
buying time for state or local governments to purchase the land for 
public use. Still, there are a number of ways the Act could be 
strengthened, as summarized below.

Give the U.S. Fish and Wildlife Service a stronger oversight role
    CBRS does not establish regulatory oversight mechanisms. Neither 
the USFWS nor any other federal agency is authorized to regulate or 
enforce CBRA. In fact, there are no regulations to enforce. Other 
agencies are required to consult with USFWS, but the Service's role is 
limited to reviewing actions proposed by federal agencies and providing 
its opinion regarding the consistency of those actions with the 
purposes of CBRA. USFWS is not authorized to investigate possible 
violations of CBRA's limitations on federal spending, nor is it 
authorized to enforce the law. The final determination of whether a 
proposed action is consistent with the purpose of CBRA rests with the 
consulting agency. The USFWS does not have veto power over other agency 
decisions. The agency should be provided with the authority to ensure 
that federal agency actions are consistent with the Act's objectives. 
This may require Congressional action.

Provide a final arbiter for interagency disputes
    When interagency conflicts arise over CBRA, as they have most 
recently between the Fish and Wildlife Service and the Corps over 
dredging from CBRS units for use outside the unit, there is no final 
arbiter of such disputes. The Service can elevate disagreements to the 
assistant administrator, but agencies can proceed with a project over 
FWS objections. An entity such as a Council on Environmental Quality 
could help resolve interagency squabbles over CBRA.

Incorporate CBRA's goals into local coastal zone management plans
    Local government officials often adopt policies and conduct 
activities that are inconsistent with the intent of CBRA. The 
comprehensive plans of coastal jurisdictions should include policies 
that are consistent with CBRA. Such a requirement could be incorporated 
as a performance guideline under the Coastal Zone Management Act. Thus, 
local governments would adopt plans consistent with CBRA and federal 
actions, including federal spending for infrastructure, would have to 
be consistent with those plans. In addition, local plans should include 
maps that show the CBRS boundaries.

Improve outreach
    No federal agency feels responsible for outreach on CBRA. As a 
result, many Realtors, buyers, developers, insurers and federal 
agencies are in the dark about the Act. As a result, insurance agents 
erroneously have issued federal flood insurance policies in CBRS areas. 
In its evaluation of CBRA, the General Accounting Office found that 42 
of the 250 residences it sampled in five CBRS units had purchased 
federal flood insurance. On North Topsail Beach, over 100 National 
Flood Insurance Policies were issued in error. When these North Topsail 
Beach policy-holders filed claims for their damaged homes after 
hurricanes Bonnie and Fran, coverage was refused. Instead, FEMA simply 
refunded their premiums. The FWS should be given the responsibility and 
the resources to enhance and expand its outreach on CBRA. One possible 
remedy would be to include CBRS boundaries in parcel maps at all county 
assessor files (digital boundaries).
    To many developers and landowners, CBRA seems unfair, especially 
when their neighbor just across the CBRS boundary has access to federal 
flood insurance. Also, the designation of CBRS units was not based on 
risk or vulnerability, so the delineation seems arbitrary to many. CBRS 
units may be less vulnerable than areas where federal flood insurance 
is available.

Limit federal spending for infrastructure on coastal barriers if it 
        will encourage development in a CBRS unit
    On coastal barriers containing both CBRS and nonCBRS areas, federal 
spending for roads, bridges, water and sewer systems to support 
development outside the CBRS area may also encourage development inside 
the CBRS unit. The President could beef up Executive Order 11988 on 
floodplain management, first issued by President Carter in 1977, to 
include measures that would limit federal support for infrastructure 
projects on coastal floodplains (coastal barriers) if such actions 
would encourage development in CBRS areas.
    Section 1 of the Executive Order calls on federal agencies to 
``take action to reduce the risk of flood loss, to minimize the impact 
of floods on human safety, health and welfare, and to restore and 
preserve the natural and beneficial values served by floodplains in 
carrying out its responsibilities for (1) acquiring, managing, and 
disposing of Federal lands and facilities; (2) providing Federally 
undertaken, financed, or assisted construction and improvements; and 
(3) conducting Federal activities and programs affecting land use, 
including but not limited to, water and related and resources planning, 
regulating, and licensing activities.''
                                 ______
                                 
    Mr. Gilchrest. In light of Mr. Salvesen's testimony this 
morning and his recommendations, has there been, or I would 
assume it would be a pretty good idea based on one of Mr. 
Salvesen's recommendations of outreach to the community, to 
have town meetings or some type of outreach communication memos 
to the State governments and local governments to determine the 
policy about development, construction, financial support, and 
extension of a road, a water line, sewage treatment plant. All 
those things are local issues.
    And I guess what seems to be important is to communicate to 
them once every few years about this Coastal Barrier Resources 
Act and what it means, because the turnover in local government 
is fairly frequent and we can't obviously assume that each new 
county commissioner or State legislators or planning person, 
who is probably the cousin of the County Supervisor or the 
County Commissioner the way that things work in local 
government, knows anything about all the Federal programs.
    So an aggressive outreach program every few years to 
reeducate local government as to all these Federal programs, I 
think would be highly recommended. If there is anything we can 
do to help facilitate that, we would like to be a part of that, 
or if you think it might be a good idea to make an amendment to 
the Act to have something like that be completed, and then as 
we authorize it, maybe we can help to fund FEMA and Fish and 
Wildlife Service to do those kinds of outreach programs.
    I think it is important not only to preserve the ecology 
and the ecological integrity of coastal barrier habitat for a 
full range of wildlife and also retain the integrity of the 
coastal barrier itself for it to function the way it has been 
over the last tens of thousands of years. But there are 
taxpayer dollar issues involved in this. There are safety 
issues involved in this as far as search and rescue is 
concerned when a storm hits.
    But what brought this home to me was the Hurricane Isabel 
that hit the East Coast. And as I traveled my district, which 
straddles the Chesapeake Bay, and whether it was a condominium 
owner that didn't realize--whether it was someone that owned 
the unit in a condominium that didn't realize that the 
condominium owner didn't have Federal flood insurance and so 
all his stuff was lost, to the insurance agent that didn't know 
about Federal flood insurance who issued the policy, to the 
bank that didn't know that the mortgage had to have, or was 
supposed to have Federal flood insurance in order to have that 
mortgage certified, to the full range down to the poor fellow 
who built the crab shack new Crisfield on the lower Eastern 
Shore that had it there for years and didn't even have it on 
the--never got a permit to build it, didn't know anything about 
permits, didn't know anything about Federal flood insurance, 
and the local government many times was confused even to the 
point where the representative from the State Insurance 
Commissioner didn't know all of the ins and outs of the Federal 
Flood Insurance Program when discussing it with someone that 
came from Missouri from FEMA to help out in Maryland.
    So from Federal flood insurance issues to CBRA issues, I 
think the outreach recommendation, we will highly recommend and 
find some way for that information to be disseminated to all 
the areas where CBRA units exist.
    And the last thing you wanted to do when you came here this 
morning was listen to a lecture. So it is not a lecture, it is 
just something that we can work more closely together on.
    Dr. Tuggle, do you have some idea when the modernization 
effort of this mapping program will be completed?
    Dr. Tuggle. Yes, sir, Mr. Chairman. We are approximately 
about 55 or 60 percent finished at this point. We anticipate 
that we will have some news to share with you by the summer of 
2004. We have made some giant strides in terms of our ability 
to be able to couple and leverage some resources.
    As you know, in the reauthorization bill, we were 
authorized $1.5 million to start this pilot project, and 
because of competing priorities with the Fish and Wildlife 
Service, we were unable to request those funds. However, we 
were very fortunate and very, shall I say, ingenious in the way 
that we looked at how we were going to leverage other 
resources, so we were able to come up with some money to start 
the pilot project and to get it initiated. So we fully 
anticipate that by next summer, we will have some good news to 
share with you in terms of the details.
    Mr. Gilchrest. We will look forward to that, and I guess 
the time frame for another hearing then would be maybe June or 
July.
    Dr. Tuggle. Yes, sir. What we would like to do is we would 
like to come up and specifically talk to the Committee members 
and your staffs ahead of that hearing--
    Mr. Gilchrest. Sure.
    Dr. Tuggle. --to explain to you not only some of the things 
that we have found out in terms of the benefits in terms of the 
digital mapping project, but also some of the problems that I 
think that we need to work with you to get them straightened 
out--
    Mr. Gilchrest. OK.
    Dr. Tuggle. --as we move into this digital arena.
    Mr. Gilchrest. Maybe we can sit down and have that meeting 
in, let us say, the February or March time frame.
    Dr. Tuggle. I will look forward to that.
    Mr. Gilchrest. Thank you. I think I am into 8 minutes now. 
I have some more questions, but I will yield at this point to 
Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman.
    Just so I understand, would that mean that by next summer, 
you would have digital mapping for the whole system? Is that--
    Dr. Tuggle. No, sir. We--
    Mr. Pallone. Would you explain, because I am not clear 
about when you say what is likely to be done by the summer.
    Dr. Tuggle. In the reauthorization bill, we were tasked 
with a pilot project that called for us to digitize 75 CBRA 
units, and those are the units that we will be presenting to 
the Committee in terms of the complexity of digitizing those 
maps and also looking at the benefits and also the costs 
associated with potentially digitizing all of the CBRA maps.
    Mr. Pallone. So what percentage is that, 75 of the total, 
approximately?
    Dr. Tuggle. Seventy-five units, you mean?
    Mr. Pallone. Yes.
    Dr. Tuggle. I would say about a third, close to a third.
    Mr. Pallone. So then you would come to us in the summer and 
use that as a demonstration and then maybe suggest that we do 
the rest?
    Dr. Tuggle. Yes, sir.
    Mr. Pallone. And then what do you think the cost or time 
table would be for that?
    Dr. Tuggle. I really think we would have a better idea when 
we have an opportunity to complete the study. A lot of times, 
what is happening is that when we get ready to map OPAs, there 
is a great deal of complexity associated with that because we 
have to go to the local areas and try to figure out who owns 
the property and also work with the county governments and the 
State governments in those cases to actually prove that they 
own those protected areas. So there is a lot more complexity 
associated with OPAs than there really are with the other 
units.
    Mr. Pallone. And then Mr. Lowe, with these revised digital 
maps, I mean, to what extent is that a priority in terms of 
determining if an area is eligible for Federal flood insurance? 
How important is this process for you?
    Mr. Lowe. Yes, it is quite important. We, too, are doing a 
map modernization process where we are digitizing our maps, 
too. We have approximately 100,000 panels, which are paper 
maps. Some of them have been digitized, but certainly not all 
of them. And so this will enable us to be very, very precise 
once we get that digital data from the Service. So we really 
look forward to it. I think it will help out a lot because we, 
too, have to kind of go back through the Service and then back 
out to our agents and homeowners and others who are trying to 
delineate whether their property is in or out. So this would be 
very important for us, as well.
    Mr. Pallone. This relates, I guess. The 1994 Flood 
Insurance Reform Act authorized FEMA to force place insurance 
for properties uninsured in flood zones. How often does FEMA 
use that authority and do you think it should be used?
    Mr. Lowe. I am not aware of that being used. I think what 
that--my guess is what that is referring to, however, is the 
lenders' ability to force place--
    Mr. Pallone. I see.
    Mr. Lowe. --for a homeowner who has a federally backed loan 
in a special flood hazard area, which does happen. Lenders do 
do that.
    Mr. Pallone. OK. And then I wanted to thank Mr. Salvesen 
for being here and for the information you provided us so far, 
particularly with regard to the outreach. But I just wanted to 
develop a little more in the time we have this idea of 
subsidies from States and localities, you know, whether it is 
infrastructure or whatever, that undermine the intent and 
effectiveness of the Act.
    You mentioned that we should try to incorporate the CBRA's 
goals into local Coastal Zone Management plans. Would you just 
develop that a little more? In other words, what can we do in 
that regard to prevent these local governments from promoting 
development with these subsidies or infrastructure? How do we 
go about getting the towns to incorporate CBRA's goals? Is 
there something that we could do legislatively or otherwise?
    Mr. Salvesen. I am not sure how you can force local 
governments to do that, but what you could do is work with them 
through the development, their Coastal Zone Management plans, 
which is kind of a cooperative undertaking between the State 
and Federal Governments.
    Some States like Florida and North Carolina require their 
coastal jurisdictions to prepare coastal elements in their 
local plans, and if working through the States through some 
sort of incentives through the Coastal Zone Management Program, 
I think you could do that.
    In other cases, you could make sure that Federal funding 
isn't being used to undermine the spirit of CBRA. For example, 
in North Topsail Beach, a very, shall we say, creative 
developer convinced the State Department of Transportation to 
relocate a road away from the beach so that his lots would be 
made large enough to develop. That was all in a CBRA area. I 
don't know if any Federal funding was used by the State 
Department of Transportation, but I would imagine some was.
    So it is that kind of cooperation through the State and 
local governments, through State governments through the 
Coastal Zone Management Program and working through some sort 
of oversight mechanism to make sure that these kind of things, 
like moving a highway, don't slip through the cracks where 
Federal funding is involved.
    There is another interesting case--I will just relay you 
one more. I am sorry to take up more time. But after Hurricane 
Fran washed out the water and sewer lines, there was a big 
disagreement with the Fish and Wildlife Service over whether or 
not they could use the money to expand the existing water line 
to serve more development in the North part of the island, and 
as I think I said before, the Fish and Wildlife Service said 
no, you could use our money to replace and repair but not to 
expand. But they did put in a larger pipe and through some 
creative financing they managed to use Fish and Wildlife 
Service funding only for--I shouldn't say Fish and Wildlife, 
Federal funding only for that portion that would have been 
spent to repair the pipe, but it indeed was enlarged, which 
would make more development possible.
    Mr. Pallone. Mr. Chairman, could I just ask him one more 
thing?
    Mr. Gilchrest. Take your time.
    Mr. Pallone. My understanding is that the Coastal Barrier 
Resources System does not establish regulatory oversight 
mechanisms, so maybe what you are saying, Mr. Salvesen, is that 
we could get Fish and Wildlife to play a stronger role in 
implementing or issuing those kind of regulations?
    Mr. Salvesen. There are no regulations to enforce, as far 
as I know. The Fish and Wildlife Service, I believe, consults, 
or other agencies consult with Fish and Wildlife Service when 
they are doing something in the CBRA unit, but there are no 
regulations to enforce. There is no regulatory oversight. And 
the Service, correct me if I am wrong, Dr. Tuggle, doesn't have 
any power to veto the decisions of other agencies.
    So, for example, if the Corps of Engineers wants to 
renourish a beach in a CBRA unit, or if the Department of 
Transportation wants to build a road or bridge in a CBRA unit, 
the Fish and Wildlife Service can consult with them, but can't 
veto that.
    Mr. Pallone. Did you want to comment on that consultation 
process and whether you think something should be strengthened, 
Dr. Tuggle?
    Dr. Tuggle. Well, certainly our role now is the keeper of 
the maps and the consultation process with the other Federal 
agencies. I would not at this time be able to comment with you 
regarding strengthening and encouraging some kind of regulatory 
capacity. I think at this point, it is going to take a little 
bit of providing more information, and it is really a sticky 
wicket when you start to talk about Federal oversight as it 
relates to local kinds of things.
    We are comfortable with our consulting capacity right now 
and what we are trying to do is create a more visible product 
with the maps so that the delineation of those lines can be 
detected at the local levels, and as they start their planning 
processes and they make those local land use decisions, that 
they can be aware. I think that the outreach component is one 
that we thoroughly endorse in that regard.
    Mr. Pallone. Thank you. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    I think the beauty of the program at its inception was that 
it was not a regulatory program. It simply allowed people to do 
whatever they wanted. They weren't going to be subsidized by 
the Federal Government. And so for a large extent, as Mr. 
Salvesen has said, most of the CBRA units have not been 
developed. It has worked.
    We held this hearing because since I have been in Congress 
and on the Merchant Marine and Fisheries Committee and now this 
Committee, we see members, for whatever reason, pressured by 
their constituents to create legislative action to take people 
out of the CBRA units. And since we now have nearly developed 
all the area outside of CBRA, people are now looking at the 
CBRA units and they know they can develop them.
    And that is fine. They can build those houses. They get 
private insurance. They have those little units for $3,000 a 
week or $10,000 a week. We need to encourage people to use 
tents and kayaks more, but what we wanted to do is to see how 
we could take a look at the program, not bring about the heavy 
hand of the Federal Government, not to give FEMA or Fish and 
Wildlife any more responsibility in the vast array of 
responsibilities than they already have, to try to figure out a 
way to inform people, the public in general, that somebody 
living just on the mainland is subsidizing somebody living a 
half-a-mile from them on a coastal barrier island, the fragile 
ecosystem, all these things we are trying to protect.
    Plus, I think it was in Mr. Salvesen's testimony that I 
went through last night, and Mr. Pallone brought it up here 
this morning, that the Corps of Engineers can scoop out sand 
from an area that is in a Coastal Barrier Resource Area and 
then take it over and dump it someplace else without Fish and 
Wildlife having any authority or anybody having authority to 
prevent that. That is a decision basically by the State 
government with a plan that they create the Corps follows 
through on with a full range of funding available from 
Congress.
    So I think that without overburdening Fish and Wildlife, 
there ought to be some effort to have greater oversight in 
something like beach replenishment. But the issue of outreach, 
information transfer, to tell the State, the local government, 
the local planning office, that the CBRA system is alive and 
well and exists and here it is, is one of the most important 
things that we can do.
    The lack of information on the local level, whether it is 
CBRA, whether it is Federal flood insurance, whether it is the 
concept of a flood plain, how to listen to the news, to know 
where your house is on that map, that if the sea level rises 
two feet, you are OK. If it rises four feet, you had better 
move out before it hits. The lack of information in the public 
arena is staggering. It is extraordinary. So the outreach would 
be pretty important.
    I would like to ask one quick question of Dr. Tuggle. I 
know this will be our decision, but I would like an honest 
appraisal of the question. Should we as a Congress pass 
legislation for a moratorium on any technical changes in the 
CBRA units until the digital mapping of all CBRA units and OPA 
is complete?
    Dr. Tuggle. I will try to be honest as I can.
    Mr. Gilchrest. OK.
    Dr. Tuggle. I would say no. Quite frankly, since 1999, we 
have developed a system by which we have embraced this 
comprehensive mapping technique, as well as using our 
contractors to get to the digital profiles associated with 
where these lines are, that we feel very comfortable at this 
point being able to make recommendations with development 
criteria as well as where the line falls on the face of the 
earth and make those recommendations to Congress in a way that 
we fully think we can support the ultimate goals of CBRA.
    The world has changed so much since 1982 as it relates to 
mapping. In 1999, we finally figured out that we needed to be 
more aggressive with this digital arena. But the question was, 
how could we do that and how far would that range be in terms 
of the scope?
    I think the combination, with the criteria that we have 
developed and has also been codified in the Reauthorization Act 
of 2000, that we are very comfortable in the way that we are 
assessing whether these lands should or should not be in CBRA 
at this time.
    May I add one more thing?
    Mr. Gilchrest. Yes.
    Dr. Tuggle. And I know I am running out of time and I 
apologize--
    Mr. Gilchrest. That is all right.
    Dr. Tuggle. The real sticky wicket in all of this are the 
OPAs, and what we are seeing with OPAs are, originally when 
they were designed, nobody asked the question whether those 
lines mirrored the land ownership, and primarily they were put 
on a map as a line where we think the land ownership is. When 
those people come back to us and they say, this is an OPA, it 
is supposed to be a protected area, we have private land and 
you have included us in the OPA, we have to look at where that 
line is primarily because OPAs were designed strictly for 
protected areas. We are seeing a lot of those kinds of 
technical corrections come to us primarily because those lines 
are incorrect.
    We don't see a lot of legislation that is being proposed 
that we support that are calling for removal for large pieces 
of property from CBRA units because they don't want to be 
there. If the criteria was met as it relates to development 
criteria, Mr. Chairman, we are holding the line in terms of 
whether we think they should be in or out.
    Mr. Gilchrest. Thank you very much, Dr. Tuggle.
    Mr. Pallone, any more questions?
    Mr. Pallone. No, I don't have any. Thanks, Mr. Chairman.
    Mr. Gilchrest. I just have a few more. I know you have a 
caucus, but I am just going to--
    Mr. Pallone. I can leave if I have to.
    Mr. Gilchrest. OK. Since 1990, Dr. Tuggle, and I am not 
sure, maybe Mr. Salvesen may know this after your research, do 
you have any idea how many acres have been legislatively 
removed from the system?
    Dr. Tuggle. May I start?
    Mr. Gilchrest. Yes, sir.
    Dr. Tuggle. We got that question, and quite frankly, 
through no disrespect to the question, we simply cannot answer 
that question at this time. We have discernible numbers since 
1999 because we have been able to use the digital profiles that 
were associated with that. To go back to 1982 would require 
significant resources and a lot more time than we had to 
prepare for--
    Mr. Gilchrest. I would assume that, actually since I asked 
this question, I just thought of this, we could probably figure 
that out, legislatively removed from--we could just go back and 
look at the Congressional Record and see how many times we 
passed a bill to remove somebody from CBRA.
    Dr. Tuggle. Even in those instances, I will be honest with 
you, administrative record does not always include acreage--
    Mr. Gilchrest. You are right. That is right.
    Dr. Tuggle. and even in some cases when it does, they are 
not correct.
    Mr. Gilchrest. Since the improvement of 1990 of CBRA, do 
you have any idea how many additional acres of FWS land has 
been added to the system?
    Dr. Tuggle. Added to the system?
    Mr. Gilchrest. Added to the system.
    Dr. Tuggle. None.
    Mr. Gilchrest. Nothing has been added to the system since--
    Dr. Tuggle. Not to the system, no.
    Mr. Gilchrest. I see. Acres of wetlands or aquatic habitat 
added to the system?
    Dr. Tuggle. No. The only thing that would remotely rise to 
that level was some land in North Carolina that was originally 
an OPA and they wanted to be included as a system unit, so that 
particular one was included. But other than--but it still is a 
protected area. But we have not had instances where we have 
added FWS land that was not in a protected area to any of the 
CBRA units.
    Mr. Gilchrest. Has anybody volunteered their land to be 
into the CBRA units?
    Dr. Tuggle. No, sir.
    [Laughter.]
    Mr. Gilchrest. Is there some--could you give us a 
recommendation--I realize that this is something that we really 
need to do--is there a recommendation by the Department to 
include similar units on the West Coast?
    Dr. Tuggle. We did a study where we basically determined 
that--the geological features on the West Coast are very 
different than they are on the East Coast, and a synopsis, it 
would require probably a change in the way the CBRA is written 
for the West Coast because it is basically a piece of 
legislation that is written for the East Coast.
    We also found that there was not a whole lot of FWS land 
that was available to be included in a CBRA-esque type unit. 
There were a lot of protected areas that were there, but the 
topography was very different. They were not subject to the 
kinds of hurricanes and storms that the East Coast is. A lot of 
the problems that you find there are the cliffs and the bluffs 
that are associated much more than the barrier islands.
    So in our determination, we were very comfortable in saying 
that we would not recommend trying to extend CBRA to the West 
Coast.
    Mr. Gilchrest. It would be, actually, I guess, based on 
what you just said, because of its topography and geology, it 
would have to be a different Act, I would suppose.
    Dr. Tuggle. Yes, sir.
    Mr. Gilchrest. If you go to protected coastal areas.
    Dr. Tuggle. Yes, sir.
    Mr. Gilchrest. Mr. Lowe, we have talked back in my office 
and here this morning, your discussion on FEMA's role in this 
area. You have said that the national Federal Flood Insurance 
Program, based on the premiums that are charged, is more or 
less self-financing. But, for example, when Fran hit or Isabel 
hit or other storms hit, the program is self-financing for 
reimbursing the homeowner if they have good coverage.
    Mr. Lowe. Right. I--
    Mr. Gilchrest. But the question, though, is the total cost 
of Isabel to local communities, to State and the Federal 
Government goes well beyond the homeowner. It is the cost to 
the National Guard, the local police, the local fire 
department, the local rescue department, areas that are set 
aside for homeowners because they can't go back into their 
home, so what it costs to house people, clothe people, feed 
people, haul debris away, all of these things. Is any of that, 
those ancillary damages and costs, is any of that covered by 
the Federal flood insurance?
    Mr. Lowe. Let me answer your, kind of the premise of your 
question first. The 1994 Act, and I know it is not in my 
statement, doesn't talk that I am aware of about self-
financing. It certainly doesn't require that of the National 
Flood Insurance Program. What you may, in fact, be referring to 
is--
    Mr. Gilchrest. I guess I didn't mean that you are required 
to have it self-financing. The discussion around here, members 
of Congress--we are not always so well informed, believe me, 
myself included--is that when people talk about reforming 
Federal flood insurance to save the taxpayers money, other 
members will say, well, Federal flood insurance is self-
financing. People pay premiums. So the whole program is 
covered.
    But, in fact, if you looked at all of the costs in areas of 
high risk, Federal flood insurance, it seems to me, doesn't 
come close to covering the cost of a storm in a high-risk area.
    Mr. Lowe. Right. No, I think that is absolutely correct. I 
mean, we cover damage to prescribed policy limits on residences 
and buildings. There are many, many indirect economic costs 
that simply are not going to be covered, of which you have 
named many of, and some of those can be astronomical. For us, 
when we look at Isabel right now, we are looking at the 
possibility of about 22,000 claims, about $450 million. Now, 
since 1986, the National Federal Flood Insurance Program has 
been able to, in fact, pay that and pay its claims without 
borrowing or certainly borrowing where it would have to go to 
Congress. We basically have a rolling line of credit which we 
pay back with interest, and so we do that. And that is out of 
the fund.
    Now, there is a Disaster Relief Fund, of course, that 
covers most of the other things which you mentioned. But the 
purpose of the Federal insurance program, in fact, was to try 
to reduce the drain, if you will, and the pull on taxpayers 
from the Disaster Relief Fund.
    Mr. Gilchrest. Thank you very much.
    That is a vote, but I have one more question for Mr. 
Salvesen. One of the recommendations that you made in your 
testimony was dealing with a stronger oversight role for Fish 
and Wildlife with the CBRA program, and you made another 
recommendation which provides a final arbiter for interagency 
disputes. It seems to me that in an arena where you can have 
the Corps of Engineers dredging sand in front of a CBRA unit to 
provide better protection for, let us say, a beachfront 
community a little further down or a little further up from 
that unit--and then I am going to ask Dr. Tuggle to quickly 
respond to that, as well--what role should the Federal 
Government or Fish and Wildlife have in negotiating that with 
the Corps of Engineers or even finding some way to prevent 
that?
    Mr. Salvesen. That is a good question. I don't know if Dr. 
Tuggle would even agree with my suggestion that perhaps Fish 
and Wildlife Service would have more oversight role. But there 
seems to be a need for somebody to perhaps elevate a decision 
when there are conflicts.
    And if you look at something like under the Endangered 
Species Act, we have, what is it called, the ``God Squad'' or 
something like that it is sometimes known as. Where there are 
disputes between protection of an endangered species and 
proposed development, that decision can be elevated to this 
``God Squad'' which consists of the directors of different 
administration--I think it is Commerce, Environment, I can't 
name all of them.
    But maybe that is the kind of mechanism you could consider 
putting in place so that where there are disagreements between 
Fish and Wildlife Service and the Corps about some Federal 
action that may not be consistent with CBRA, you could--it is 
kind of like those of you who are old enough to remember ``Get 
Smart,'' you remember whenever Max wanted to discuss something 
that was controversial and the Chief didn't agree, he would 
say, ``Well, we need to bring out the cone of silence,'' you 
know, and the Chief hated that cone of silence.
    So you need something that says, we need to elevate this to 
a higher level so that all of us can sit around and talk about 
this, and that very threat might get them to say, OK, look, you 
win. We will stay out of the CBRA unit. But some mechanism like 
that where the Fish and Wildlife Service would have a little 
more leeway about decisions that affect development in and 
around the CBRA units.
    Mr. Gilchrest. Thank you very much. I will check that movie 
out this weekend.
    [Laughter.]
    Mr. Salvesen. No, it wasn't a movie, it was just the daily, 
you know, weekly show.
    Mr. Gilchrest. Oh.
    Mr. Salvesen. I am dating myself. I am sorry.
    Mr. Gilchrest. OK.
    Mr. Salvesen. You never saw the cone of silence?
    Mr. Gilchrest. I guess--no. We will talk about that later.
    Mr. Salvesen. It is classic. [Laughter.]
    Mr. Gilchrest. It might be something useful for me to know, 
though.
    Dr. Tuggle, any comment on that?
    Dr. Tuggle. Mr. Chairman, you know, it is--you are right in 
terms of your instincts in terms of this ability to try to 
arbitrate these kinds of decisions. Right now, the Fish and 
Wildlife Service's role is to advise the Corps of Engineers in 
regards to our interpretation of whether removing sand from a 
CBRA unit is appropriate or not.
    One of the things that I might suggest is that you are in a 
situation where the Corps may have already gotten authorization 
as well as appropriation to fulfill this role and, therefore, 
which one supercedes. I would recommend that if we wanted to 
pursue this to a different degree, we might make a 
recommendation to CEQ, or the Council of Environmental Quality. 
That might be an excellent body by which we can explain our 
points of view and the Administration can make a decision in 
that regard, versus having the Service be burdened with some 
other responsibility or regulation, and I am, quite frankly, 
not an advocate of that.
    Mr. Gilchrest. All right. Well, thank you very much.
    One last comment. In Mr. Salvesen's testimony, you made a 
number of references to the conflicting role of the Federal 
Government. On the one hand, we are trying to protect a 
property and on the other hand we are financing the 
infrastructure for development.
    What we would like to do as we move through this process of 
understanding this area of the Federal Government's role in 
CBRA, where some of those conflicts are, when we sit down maybe 
in March to look at the digital mapping in anticipation of 
another hearing in the June-July time frame, we would like to 
keep all three of you abreast of what we are doing so this 
review, when we have it, can bring some very clear, specific 
recommendations and some very positive changes.
    Dr. Tuggle, Mr. Lowe, Mr. Salvesen, we appreciate your 
testimony very much and for traveling here to give it. Thank 
you.
    This hearing is adjourned.
    [Whereupon, at 11:10 a.m., the Subcommittee was adjourned.]


</pre></body></html>
